<html>
<title> - STRIKING THE RIGHT BALANCE: PROTECTING OUR NATION'S CRITICAL INFRASTRUCTURE FROM CYBER ATTACK AND ENSURING PRIVACY AND CIVIL LIBERTIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     STRIKING THE RIGHT BALANCE: PROTECTING OUR NATION'S CRITICAL 
    INFRASTRUCTURE FROM CYBER ATTACK AND ENSURING PRIVACY AND CIVIL 
                               LIBERTIES 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2013

                               __________

                           Serial No. 113-13

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

82-587 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Vacancy
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                 Patrick Meehan, Pennsylvania, Chairman
Mike Rogers, Alabama                 Yvette D. Clarke, New York
Jason Chaffetz, Utah                 William R. Keating, Massachusetts
Steve Daines, Montana                Filemon Vela, Texas
Scott Perry, Pennsylvania            Steven A. Horsford, Nevada
Vacancy                              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Alex Manning, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     1
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Ms. Mary Ellen Callahan, Partner, Jenner & Block, and Former 
  Chief Privacy Officer, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Ms. Cheri F. McGuire, Vice President, Global Government Affairs & 
  Cybersecurity Policy, Symantec:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Ms. Harriet P. Pearson, Partner, Hogan Lovells:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21


     STRIKING THE RIGHT BALANCE: PROTECTING OUR NATION'S CRITICAL 
    INFRASTRUCTURE FROM CYBER ATTACK AND ENSURING PRIVACY AND CIVIL 
                               LIBERTIES

                              ----------                              


                        Thursday, April 25, 2013

             U.S. House of Representatives,
     Subcommittee on Cybersecurity, Infrastructure 
             Protection, and Security Technologies,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:19 p.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Rogers, Daines, Perry, 
Clarke, Keating, Vela, and Horsford.
    Mr. Meehan. The Committee on Homeland Security Subcommittee 
on Cybersecurity, Infrastructure Protection, and Security 
Technologies will come to order.
    The subcommittee is meeting today to examine the balance 
between preventing a cyber attack on our Nation's critical 
infrastructure and ensuring privacy and civil liberties are 
protected. I will recognize myself for an opening statement.
    I would like to welcome everyone to today's hearing, which 
is titled, ``Striking the Right Balance: Protecting Our 
Nation's Critical Infrastructure From Cyber Attack and Ensuring 
Privacy and Civil Liberties.'' During this Congress, our 
subcommittee has been examining the cybersecurity threat to 
individuals and to our critical infrastructure. Our Nation has 
made great strides, but the threat is multi-faceted and we are 
only as strong as our weakest link.
    Earlier this week, we saw the ramifications of a hacked 
Twitter account that nearly sent our financial markets into a 
tailspin. While the Dow Jones Industrial Average has to recoup 
their losses, the lesson is clear: We are in an interconnected 
world. A successful attack on one network will certainly impact 
others.
    The Department of Homeland Security plays a crucial role in 
preventing cyber attacks on our Governmental and critical 
infrastructure key resources. As Chairman McCaul and I and the 
Ranking leadership work together, we have continued to use our 
efforts to craft legislation to bolster existing structures and 
improve the capabilities of the Department of Homeland 
Security. One of the key challenges will be to strike the 
balance of securing our networks and ensuring our protections 
for our citizens.
    Upon assuming the gavel of this subcommittee this year, I 
made sure I immediately reached out to leading privacy 
advocates. Groups like the American Civil Liberties Union and 
Center for Democracy & Technology have been instrumental in 
shaping the thinking as we have moved forward with the 
committee's work. Indeed, we must make clear that the purpose 
of sharing information is to prevent a cyber attack and nothing 
else. Any intelligence shared with the Government or with 
public or private entities must include protections for 
consumers and individuals.
    In order to accomplish this, we must ensure that we have a 
full understanding, first, what the threat is; next, what type 
of intelligence is necessary to share to prevent an attack; 
then what type of information is inadvertently caught in the 
net; and furthermore, what may be done once it is identified? 
The answer to these questions, coupled with robust civilian 
oversight, a clear set of rules of conduct and liability 
protections for those acting in good faith will help shape the 
key policy initiatives for our subcommittee.
    I need to be clear and I think all of us share that right 
out front that the committee is not concerned with internet 
habits of ordinary Americans. It is our duty as Members of this 
committee to make sure that the Department does not monitor, 
collect, or store the on-line activity of law-abiding American 
citizens. Therefore, information that permits the identity of 
an individual to be directly or indirectly inferred, which is 
also referred to as personally identifiable information, must 
be protected.
    The Department of Homeland Security has significant 
inherent advantages that enable the Department to facilitate 
communication among 16 critical infrastructure sectors. The 
Department of Homeland Security Privacy Office is the first 
statutorily required privacy office in any Federal agency. The 
office is responsible for evaluating Department operations for 
potential privacy impacts and providing mitigation strategies 
to reduce the privacy impact.
    By employing Fair Information Practice Principles, or 
FIPPs, as it is known, the DHS Privacy Office is charged with 
ensuring that the Department's data collection methods are 
transparent, have specified purposes, and include data 
minimization, use limitation, data quality and integrity, 
security, accountability, and auditing. Those are FIPPs 
principles.
    It is for these reasons that many intelligence and 
cybersecurity experts point to DHS as manning a significant 
role in combating the threat. In fact, the Director of the 
National Security Agency, General Keith Alexander, said that 
due to the Department's transparency, he sees DHS as an entry 
point for working with industry.
    Building our Nation's capacity to prevent cyber attacks is 
complex as it is essential. As a former United States attorney, 
I can tell you that the Department of Justice has a very 
important role to play in enforcing our cyber crime laws. We 
also must permit our military and foreign intelligence 
capabilities and those resources to protect our Nation's 
defense. Equally as important, the Department of Homeland 
Security has the mission of defending our Nation's key 
resources and the liberties guaranteed by our Constitution.
    We have an excellent panel of witnesses today who will help 
us answer these questions and hopefully help us find the 
balance. Moving forward, today's hearing aims to examine how 
DHS currently protects privacy and personally identifiable 
information. It addresses the legitimate privacy concerns that 
are inherent in sharing cybersecurity threat information and 
finds ways to strike that proper balance between privacy and 
security. No one should mistake the common cause of securing 
our homeland for authority to violate the civil liberties of 
Americans.
    The Chairman now recognizes the Ranking Minority Member, 
the gentlelady from New York, Ms. Clarke, for any statement she 
may have.
    Ms. Clarke. Mr. Chairman, I thank you for holding today's 
hearing. I am pleased to be joined today by this very 
distinguished panel of witnesses, and I would like to welcome 
Mary Ellen Callahan back to the committee for her first time 
since leaving the Department.
    Here on the Homeland Security committee, we have understood 
the need to balance security and privacy for quite some time. 
Protecting our Nation from 21st Century threats requires 
vigorous coordinated action from our Government and State, 
local, private sector, and international partners. But if we go 
overboard to identify and eliminate every conceivable threat at 
any cost, we risk trampling the very rights of citizens we aim 
to protect. The need to find that proper balance has been a 
cornerstone of our committee's work on counterterrorism, on 
transportation security and certainly on today's topic, 
cybersecurity.
    Most of the Government's efforts in cybersecurity do not 
directly touch upon privacy issues, and that is an important 
distinction that is not made often enough. Many programs, such 
as the Department of Homeland Security's EINSTEIN program, do 
not involve the collection or sharing of any kind of personally 
identifiable information at all. The vast majority of all of 
the information needed to thwart cyber attacks consists of 
technical data, such as IP addresses and malicious code, which 
has little or nothing to do with someone's social security 
number or passwords.
    But where the private sector needs to share information 
with the Government to stop cyber attacks, every precaution 
must be taken to ensure the privacy of our citizens is ensured.
    Last month, we heard from the American Civil Liberties 
Union on the importance of protecting privacy in cyberspace. I 
am pleased that we are joined today by three witnesses, who can 
really speak to the nuts and bolts of challenges, protecting 
private data from both the Government and business 
perspectives. As we look toward crafting our own legislation to 
help protect critical infrastructure and improve our Nation's 
cybersecurity efforts, it is important to really nail down the 
specifics of protecting privacy.
    In order to get our approach to cybersecurity and privacy 
right, we must examine it from all the angles. We must assess 
the current legal environment and identify challenges that 
companies must cope with in ensuring the privacy and security 
of their employees' and customers' data. We must determine the 
types of information needed by the Government to prevent the 
attacks and the intended uses of that information. We must 
examine how commercial cybersecurity providers interact with 
their customers and the Government to share threat information.
    Thankfully, our witnesses today cover the breadth of these 
issues with their testimony.
    I am particularly pleased we are joined by Harriet Pearson, 
who is one of the Fortune 1,000 first chief privacy officers 
and has been a trailblazer for developing information policies 
and practices for protecting the private data of employees--
excuse me, consumers.
    Every American values their privacy and civil liberties as 
well as their security in cyberspace. I am confident that in 
building a lasting solution to our cybersecurity, we can adopt 
measures that will satisfy privacy advocates, the business 
community, and our citizens.
    That ends my statement, Mr. Chairman, and I yield back the 
balance of my time.
    [The statement of Ranking Member Clarke follows:]
              Statement of Ranking Member Yvette D. Clarke
                             April 25, 2013
    Here on the Homeland Security Committee, we have understood the 
need to balance security and privacy for a long time. Protecting our 
Nation from 21st Century threats requires vigorous, coordinated action 
from our Government and State, local, private-sector, and international 
partners.
    But if we go overboard to identify and eliminate every conceivable 
threat at any cost, we risk trampling the very rights of the citizens 
we aim to protect. The need to find that proper balance has been a 
cornerstone of our committee's work, on counterterrorism, on 
transportation security, and certainly on today's topic, cybersecurity.
    Most of the Government's efforts in cybersecurity do not directly 
touch upon privacy issues, and that is an important distinction that is 
not made often enough. Many programs, such as the Department of 
Homeland Security's EINSTEIN program, do not involve the collection or 
sharing of any kind of personally identifiable information at all.
    And the vast majority of the information needed to thwart cyber 
attacks consists of technical data such as IP addresses and malicious 
code, which has little or nothing to do with someone's social security 
number or passwords. But where the private sector needs to share 
information with the Government to stop cyber attacks, every precaution 
must be taken to ensure that the privacy of our citizens is ensured.
    Last month we heard from the American Civil Liberties Union on the 
importance of protecting privacy in cyberspace, and I am pleased that 
we are joined today by three witnesses who can really speak to the 
nuts-and-bolts challenges of protecting private data, both from the 
Governmental and business perspectives.
    As we look towards crafting our own legislation to help protect 
critical infrastructure and improve our Nation's cybersecurity efforts, 
it is important to really nail down the specifics on protecting 
privacy.
    In order to get our approach to cybersecurity and privacy right, we 
must examine it from all the angles:
  <bullet> We must assess the current legal environment and identify 
        challenges that companies must cope with in ensuring the 
        privacy and security of their employees and customers' data;
  <bullet> We must determine the types of information needed by the 
        Government to prevent attacks, and the intended uses for that 
        information;
  <bullet> And we must examine how commercial cybersecurity providers 
        interact with their customers and the Government to share 
        threat information.
    Thankfully, our witnesses today cover the breadth of these issues 
with their testimony. I am particularly pleased that we are joined by 
Harriet Pearson, who was one of the Fortune 1000's first chief privacy 
officers, and has been a trailblazer for developing information 
policies and practices for protecting the private data of employees and 
consumers.
    Every American values their privacy and civil liberties as well as 
their security in cyberspace, and I am confident that in building a 
lasting solution to our cyber insecurity, we can adopt measures that 
will satisfy privacy advocates, the business community, and our 
citizens.

    Mr. Meehan. I thank you, Ranking Member.
    The other Members of the committee are reminded that 
opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 24, 2013
    We are here to discuss ways to secure cyberspace and critical 
infrastructure from hackers while assuring that Constitutionally-
guaranteed privacy and civil liberties are safeguarded.
    In the last 10 years, our society has become increasingly connected 
by computer networks. Networking technologies have changed our 
traditional notions of time and space. Our ability to reach the 
farthest corner of the earth has grown while the distance between us 
has shrunk. The world and all it has to offer is a click away and can 
be viewed on a screen in front of us.
    But this unprecedented connectivity and convenience has not come 
without a price. We face new kinds of dangers that may come for us at 
any time from any corner of the globe. Destruction can be delivered 
with a keystroke.
    Unfortunately, cyber attacks are increasing. This Nation cannot 
unnecessarily delay implementation of cybersecurity programs to combat 
these threats. Those efforts must include responsible collaboration 
between private industry and the Government to ensure the greatest care 
is given to our citizens' private data. The protections we put in place 
and the information we share to combat the threats must not undermine 
the privacy that each American rightfully regards as a fundamental 
freedom.
    Working together, we can create a legal framework which encourages 
businesses to share enough information to reduce the likelihood of 
intrusions and prevent future harm without compromising privacy.
    But, Mr. Chairman, perhaps the most important weapon in our arsenal 
to protect privacy is ensuring that the Government's efforts are led by 
a civilian agency. Information sharing with Federal civilian agencies 
will provide the public with a sense of increased transparency and 
accountability because Congressional oversight and public information 
requests will enable Members of this body and members of the public to 
peek behind the curtain, ask questions, and find out what is happening.
    That is why I was proud to sponsor, with Chairman McCaul, an 
amendment to the Cyber Intelligence Sharing and Protection Act, which 
firmly established a center at the Department of Homeland Security to 
serve as the hub for cyber threat information sharing. As you know, 
this amendment was approved.
    Mr. Chairman, I thank you for holding today's hearing to bring the 
privacy question into sharp focus. In the coming months, I look forward 
to introducing legislation to further improve our Nation's 
cybersecurity posture, with a special emphasis on privacy implications. 
I would like to thank our witnesses for joining us today. I look 
forward to hearing the testimony.

    Mr. Meehan. We really are pleased to have a very 
distinguished panel of witnesses before us today on this 
important topic. I don't think that there could have been a 
better group assigned, but this is a remarkably important 
issue, and I think you have the ability to help the American 
citizens understand where this area is in which important work 
is done to allow us to protect our homeland, but simultaneously 
significant and important work is being done and can be done to 
help us ensure that we protect the privacy interests of 
Americans. So I am hoping that we can educate those who don't 
really understand in this complex area what the parameters are.
    We have in this panel Ms. Mary Ellen Callahan, who we have 
had the privilege of having before this committee before, a 
Nationally recognized privacy attorney with an extensive 
background in consumer protection law. As the longest-serving 
former chief privacy officer of the United States Department of 
Homeland Security, the first statutorily-mandated privacy 
officer in any Federal agency, Ms. Callahan has a unique and 
broad knowledge of experience with the interface of protection 
of privacy, civil rights, and civil liberties with 
cybersecurity and National security issues.
    During her tenure at the Department of Homeland Security, 
Ms. Callahan also served as the chief Freedom of Information 
Officer, responsible for centralizing both FOIA and Privacy Act 
operations to provide policy and programmatic oversight and 
support implementation across the Department.
    Ms. Callahan is a founder and chair of Jenner & Block's 
privacy information governance practice.
    We have Ms. Cheri McGuire, who serves as vice president for 
global government affairs and cybersecurity policy at Symantec, 
where she is responsible for managing a global team focused on 
cybersecurity, data integrity, and privacy issues. Prior to 
joining Symantec, Ms. McGuire served as the director of 
critical infrastructure in cybersecurity in Microsoft's 
Trustworthy Computing Group and also as Microsoft's 
representative to the Industry Executive Subcommittee on the 
President's National Security Telecommunications Advisory 
Committee. Prior to joining Microsoft Ms. McGuire served in 
numerous capacities at DHS including as acting director and 
deputy director of the National Cybersecurity Division and US-
CERT.
    We are very pleased to be joined as well by Ms. Harriet 
Pearson, a partner at Hogan Lovells, where she focuses on 
counseling clients on privacy and information security policy 
in compliance matters, data security incident response and 
remediation and information in cybersecurity risk management 
and governance. Ms. Pearson joined Hogan from IBM Corporation 
where she served as vice president, security counsel, and chief 
privacy officer. At IBM, she was responsible for information 
policy and practices affecting over 400,000 employees and 
thousands of clients. She also lead IBM's global engagement 
public policy and industry initiatives relative to 
cybersecurity and data privacy. I think that outlines the 
tremendous qualifications and experience of this very, very 
distinguished panel.
    So the witnesses' full statements will appear in the 
record.
    The Chairman now recognizes Ms. Callahan for her testimony.

STATEMENT OF MARY ELLEN CALLAHAN, PARTNER, JENNER & BLOCK, AND 
   FORMER CHIEF PRIVACY OFFICER, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Callahan. Thank you very much, sir.
    Chairman Meehan, Ranking Member Clarke, distinguished 
Members of the subcommittee, thank you for the opportunity to 
appear before you again today.
    My name is Mary Ellen Callahan, and I am a partner at the 
law firm of Jenner & Block, where I chair the privacy and 
information governance practice and counsel private-sector 
clients on integrating privacy and cybersecurity.
    As the Chairman noted, from March 2009 to August 2012, I 
served as the chief privacy officer at the U.S. Department of 
Homeland Security. I have worked as a privacy professional for 
15 years and have National and international experience in 
integrating privacy into business and Government operations. I 
am appearing before this subcommittee in my personal capacity.
    As the subcommittee knows and as Ms. McGuire will detail 
more thoroughly, the United States critical infrastructure 
faces significant cybersecurity threats. However, cybersecurity 
and privacy must be integrated in order to effectively--most 
effectively protect those valuable assets.
    The Department of Homeland Security has taken multiple 
steps, including several during my 3\1/2\-year tenure to 
integrate privacy into the DHS cybersecurity programs. First, 
as the Chairman noticed, DHS has thoroughly integrated the Fair 
Information Practice Principles into all of its programs, 
including cybersecurity. The FIPPs are eight interdependent 
principles that create a framework for how information may be 
used and shared in a manner that protects privacy: 
Transparency; individual participation; purpose specification; 
data minimalization; use limitation; data quality and 
integrity; security; and accountability and auditing.
    DHS has furthermore been very transparent about its 
cybersecurity capabilities. For example, DHS published several 
privacy impact assessments, or PIAs, detailing pilot programs 
and information sharing among and between different entities, 
including a pilot program with the National Security Agency and 
an information-sharing program with the defense industrial 
base.
    The Department engaged privacy advocates and private-sector 
representatives on its cybersecurity activities through a 
Federal advisory committee subcommittee, multiple meetings with 
advocates, and with Congressional testimony such as before this 
committee.
    The Department has already hired multiple cybersecurity 
privacy professionals in order to embed them into the 
infrastructure at DHS. These privacy professionals review and 
provide comments and insight into cybersecurity standard 
operating procedures, statements of work, contracts, and 
international cyber information-sharing agreements. These 
privacy professionals also provide cyber-specific privacy 
training to the cybersecurity analysts to supplement the 
privacy training required for DHS employees and contractors.
    Furthermore, an important tenet of the FIPPs is the concept 
of accountability. Given the importance of the DHS mission in 
cybersecurity, the DHS Privacy Office conducted a privacy 
compliance review in late 2011. My office found that the 
cybersecurity program was generally compliant with the 
requirements outlined with cybersecurity privacy impact 
assessments. This compliance review is available in the DHS 
Privacy Office website, as are all the privacy documents 
referenced in my written testimony.
    Since I left DHS, I know through public knowledge that the 
Department continues to work to embed privacy protections into 
its cybersecurity activities. For example, its advisory 
committee, the Data Privacy and Integrity Advisory Committee, 
issued a robust paper for DHS to consider when implementing 
information-sharing pilots and programs with other entities, 
including the private sector. Furthermore, in January 2013, DHS 
published a thoughtful and comprehensive privacy impact 
assessment covering the enhanced cybersecurity surfaces, also 
known as ECS--we have a lot of acronyms, and I am sorry about 
that--ECS is voluntary program based on the sharing of 
indicators of malicious cyber activity between DHS and 
participating commercial service providers.
    The information-sharing implementation standards described 
in the ECS PIA are concrete examples of privacy by design and 
should well position DHS to effectively implement the increased 
information sharing mandated in the 2013 Executive Order. In 
addition, just this week, the Department announced that it will 
deploy EINSTEIN 3 accelerated, known as E3A, network intrusion 
prevention capabilities on Federal Government networks as a 
managed security service provided by ISPs, rather than placing 
the entire response on the Federal Government.
    DHS will share threat information it receives through E3A 
consistent with its existing policies and procedures. The way 
E3A is structured should enhance privacy, protect the Federal 
civilian Executive branch departments and agencies, and provide 
a nimble response to the evolving cyber threat.
    The continued integration of privacy and cybersecurity is 
crucial for effective cybersecurity protections. In my 15 
years, it is clear that privacy integration into the 
operational aspects of any activity makes the program both more 
effective and more likely to protect privacy. I believe DHS has 
appropriately and effectively integrated privacy and 
cybersecurity, both in its Federal Executive responsibilities 
and as an information-sharing responsibility.
    Thank you for the opportunity to appear before you this 
afternoon. I am happy to take any questions.
    [The prepared statement of Ms. Callahan follows:]
               Prepared Statement of Mary Ellen Callahan
                             April 25, 2013
    Chairman Meehan, Ranking Member Clarke, distinguished Members of 
the subcommittee, thank you for the opportunity to appear before you 
today. My name is Mary Ellen Callahan. I am a partner at the law firm 
of Jenner & Block, where I chair the Privacy and Information Governance 
practice and counsel private-sector clients on integrating privacy and 
cybersecurity. From March 2009 to August 2012, I served as the chief 
privacy officer at the U.S. Department of Homeland Security (DHS or 
Department). I have worked as a privacy professional for 15 years, and 
have National and international experience in integrating privacy into 
business and Government operations. I am appearing before this 
subcommittee in my personal capacity, and not on behalf of any other 
entity.
    As this subcommittee knows, the United States' critical 
infrastructure, including Government assets, face significant 
cybersecurity threats. Cybersecurity and privacy must be integrated in 
order to most effectively protecting valuable assets. Furthermore, if 
done right, increased cybersecurity (with appropriate standards and 
procedures) also means increased privacy.
    The Department of Homeland Security has taken multiple steps to 
integrate cybersecurity and privacy as part of the Department's 
cybersecurity mission. In fact, DHS has integrated privacy into its 
cybersecurity program since the EINSTEIN program was launched in late 
2003. Shortly thereafter, the Department published one of the its first 
Privacy Impact Assessments (PIA) on EINSTEIN 1 (a network flow system), 
detailing the privacy protections that DHS embedded into its 
cybersecurity program from the beginning, and being transparent about 
those protections.\1\ In 2008, DHS conducted a PIA on the second 
iteration of the DHS cybersecurity program, EINSTEIN 2 (adding an 
intrusion detection capability).\2\ These PIAs exemplify the concept of 
``privacy by design'' and are important foundational considerations for 
a large operational department like DHS.
---------------------------------------------------------------------------
    \1\ EINSTEIN 1, developed in 2003, provides an automated process 
for collecting computer network security information from voluntary 
participating Federal executive agencies. It works by analyzing network 
flow records. Even though DHS was not required to do a PIA given no 
personally identifiable information (PII) was being collected, DHS 
conducted a PIA (DHS/NPPD/PIA/001) on EINSTEIN 1 in September 2004 for 
transparency, available at: http://www.dhs.gov/xlibrary/assets/privacy/
privacy_pia_einstein.pdf.
    \2\ As with EINSTEIN 1, EINSTEIN 2 passively observes network 
traffic to and from participating Federal Executive Branch departments 
and agencies' networks. In addition, EINSTEIN 2 adds an intrusion 
detection system capability that alerts when a pre-defined specific 
cyber threat is detected and provides the US-CERT with increased 
insight into the nature of that activity. The May 2008 PIA (DHS/NPPD/
PIA-008) is available at: http://www.dhs.gov/xlibrary/assets/privacy/
privacy_pia_einstein2.pdf.
---------------------------------------------------------------------------
   i. dhs integration of privacy protections into its cybersecurity 
                                programs
    During my 3\1/2\-year tenure at DHS, we further integrated privacy 
into the DHS cybersecurity programs in several ways.
    1. Integration of the Fair Information Practice Principles into DHS 
        Cybersecurity Programs.--As noted below, DHS has thoroughly 
        integrated the Fair Information Practice Principles (FIPPs) 
        into its cybersecurity programs. The FIPPS are the ``widely-
        accepted framework of defining principles to be used in the 
        evaluation and consideration of systems, processes, or programs 
        that affect individual privacy.''\3\
---------------------------------------------------------------------------
    \3\ National Strategy for Trusted Identities in Cyberspace, April 
2011, available at: http://www.whitehouse.gov/sites/default/files/
rss_viewer/NSTICstrategy_041511.pdf.
---------------------------------------------------------------------------
    The FIPPs are eight interdependent principles that create a 
        framework for how information may be used and shared in a 
        manner that protects privacy: Transparency; individual 
        participation; purpose specification; data minimization; use 
        limitation; data quality and integrity; security; and 
        accountability and auditing.\4\ During my tenure, my office 
        worked tirelessly to integrate the FIPPs into all DHS programs, 
        including cybersecurity.
---------------------------------------------------------------------------
    \4\ DHS adopted the eight FIPPs as a framework for Privacy Policy 
on December 29, 2008; see DHS Privacy Policy Guidance Memorandum 2008-
01, available at: http://www.dhs.gov/xlibrary/assets/privacy/
privacy_policyguide_2008-01.pdf.
---------------------------------------------------------------------------
    2. Transparency.--DHS has been very transparent about its 
        cybersecurity capabilities. During my tenure, DHS published 
        several PIAs detailing pilot programs and information sharing 
        among and between different Government entities. First, DHS 
        discussed via PIA a 12-month proof of concept to determine the 
        benefits and issues presented by deploying the EINSTEIN 1 
        capability to Michigan State government networks managed by the 
        Michigan Department of Information Technology.\5\ Shortly 
        thereafter, DHS completed both a classified and unclassified 
        PIA for the ``Initiative Three Exercise''\6\ of the 
        Comprehensive National Cybersecurity Initiative.''\7\ In the 
        Initiative Three Exercise, DHS engaged in an exercise to 
        demonstrate a suite of technologies that could be included in 
        the next generation of the Department's EINSTEIN network 
        security program, such as an intrusion prevention capability. 
        This demonstration used a modified complement of system 
        components then being provided by the EINSTEIN 1 and EINSTEIN 2 
        capabilities, as well as a DHS test deployment of technology 
        developed by the National Security Agency (NSA) that included 
        an intrusion prevention capability. The DHS Privacy Office 
        worked with DHS and the NSA to be as transparent as possible 
        with the Exercise, including naming NSA (and its role in the 
        Exercise) expressly in the PIA.
---------------------------------------------------------------------------
    \5\ Privacy Impact Assessment Update for the EINSTEIN 1: Michigan 
Proof of Concept, February 19, 2010, (DHS/NPPD/PIA-013) available at: 
http://www.dhs.gov/xlibrary/assets/privacy/
privacy_pia_nppd_einstein1michigan.pdf.
    \6\ US-CERT: Initiative Three Exercise Privacy Impact Assessment 
(unclassified), March 18, 2010, (DHS/NPPD/PIA-014) available at: http:/
/www.dhs.gov/xlibrary/assets/privacy/privacy_pia_nppd_initiative3.pdf.
    \7\ See http://www.whitehouse.gov/cybersecurity/comprehensive-
national-cybersecurity-initiative for a description of all 12 
cybersecurity initiatives.
---------------------------------------------------------------------------
    In early 2012, DHS published a PIA on its information-sharing pilot 
        with the Defense Industrial Base;\8\ after 180 days and a 
        series of evaluations of its effectiveness, the PIA was updated 
        to reflect the establishment of a permanent program to enhance 
        cybersecurity of participating Defense Industrial Base entities 
        through information-sharing partnerships. The permanent program 
        was announced via PIA shortly before my departure.\9\
---------------------------------------------------------------------------
    \8\ Privacy Impact Assessment for the National Cyber Security 
Division Joint Cybersecurity Services Pilot (JCSP), January 16, 2012, 
(DHS/NPPD/PIA-021) available at: http://www.dhs.gov/xlibrary/assets/
privacy/privacy_nppd_jcsp_pia.pdf. (N.B., this PIA has been retired 
with the release of the ECS PIA in January 2013, referenced below).
    \9\ Privacy Impact Assessment Update for the Joint Cybersecurity 
Services Program (JCSP), Defense Industrial Base (DIB)--Enhanced 
Cybersecurity Services (DECS), July 18, 2012, (DHS/NPPD/PIA-021(a)) 
available at: http://www.dhs.gov/xlibrary/assets/privacy/privacy-pia-
update-nppd-jcps.pdf. (N.B., this PIA update has been retired with the 
release of the ECS PIA in January 2013, referenced below).
---------------------------------------------------------------------------
    Furthermore, one of my last acts as Chief Privacy Officer was to 
        approve a comprehensive PIA that described the entire National 
        Cybersecurity Protection System (NCPS), a programmatic PIA that 
        explains and integrates all the NPPD/Cybersecurity and 
        Communication (CS&C) cyber programs in a holistic document, 
        rather than the previous patchwork PIAs that were snapshots in 
        time of CS&C capabilities.\10\ This NCPS PIA helps provide a 
        comprehensive understanding of the CS&C cybersecurity program, 
        further increasing transparency.
---------------------------------------------------------------------------
    \10\ National Cybersecurity Protection Program Privacy Impact 
Assessment, July 30, 2012, (DHS/NPPD/PIA-026) available at: http://
www.dhs.gov/sites/default/files/publications/privacy/privacy-pia-nppd-
ncps.pdf.
---------------------------------------------------------------------------
    3. Outreach and engagement with advocates and private-sector 
        representatives.--The Department engaged privacy and civil 
        liberties advocates and private-sector representatives about 
        its cybersecurity activities in several ways. First, as part of 
        the Cyberspace Policy Review conducted by the administration in 
        2009,\11\ the Department met with privacy and civil liberties 
        advocates and academicians (at a Top Secret/SCI level) to 
        discuss the Advanced Persistent Threat landscape, and 
        Government response. That ad hoc meeting led to the creation of 
        a subcommittee of DHS' Federal Advisory Committee Act-
        authorized committee, the Data Privacy and Integrity Advisory 
        Committee (DPIAC).\12\ The members and the experts on the DPIAC 
        subcommittee (including privacy and civil liberties advocates, 
        academicians, and private-sector representatives) were briefed 
        frequently at the Top Secret/SCI level. After my departure, the 
        DPIAC subcommittee produced an excellent report on integrating 
        privacy into the DHS information-sharing pilots and programs, 
        discussed below.
---------------------------------------------------------------------------
    \11\ Cyberspace Policy Review: Assuring a Trusted and Resilient 
Information and Communications Infrastructure, 2009, available at: 
http://www.whitehouse.gov/assets/documents/
Cyberspace_Policy_Review_final.pdf.
    \12\ The DHS Data Privacy and Integrity Advisory Committee provides 
advice at the request of the Secretary of Homeland Security and the DHS 
Chief Privacy Officer on programmatic, policy, operational, 
administrative, and technological issues within the DHS that relate to 
PII, as well as data integrity and other privacy-related matters. The 
committee was established by the Secretary of Homeland Security under 
the authority of 6 U.S.C.  451 and operates in accordance with the 
provisions of the Federal Advisory Committee Act (FACA) (5 U.S.C. App).
---------------------------------------------------------------------------
    In addition to the systematic engagement of advocates, 
        academicians, and private-sector representatives through the 
        DPIAC subcommittee, DHS also discussed its embedded privacy and 
        cybersecurity protections in several public fora, including 
        Congressional testimony,\13\ public articles,\14\ and multiple 
        public presentations before the DPIAC on DHS cyber 
        activities.\15\
---------------------------------------------------------------------------
    \13\ See, e.g., The Cybersecurity Partnership Between the Private 
Sector and Our Government: Protecting Our National and Economic 
Security, Joint Committee Hearing before Senate Committee on Homeland 
Security and Governmental Affairs and Senate Committee on Commerce, 
Science, and Transportation, March 7, 2013 (testimony of Secretary 
Janet Napolitano); DHS Cybersecurity: Roles and Responsibilities to 
Protect the Nation's Critical Infrastructure, Hearing before House 
Committee on Homeland Security, March 13, 2013 (testimony of Deputy 
Secretary Jane Holl Lute); Examining the Cyber Threat to Critical 
Infrastructure and the American Economy, Hearing before House Committee 
on Homeland Security, March 16, 2011 (testimony of NPPD Deputy Under 
Secretary Philip Reitinger).
    \14\ See, e.g., Securing Cyberspace While Protecting Privacy and 
Civil Liberties, Homeland Security Blog (by Secretary Janet 
Napolitano), April 2, 2013, available at: http://www.dhs.gov/blog/2013/
04/02/securing-cyberspace-while-protecting-privacy-and-civil-liberties; 
Op-Ed: A Civil Perspective on Cybersecurity, (Jane Holl Lute and Bruce 
McConnell), WIRED, February 14, 2011, available at: http://
www.wired.com/threatlevel/2011/02/dhs-oped/all/.
    \15\ See, e.g., on March 18, 2010, Deputy Assistant Secretary for 
Cybersecurity and Communications Michael A. Brown presented to DPIAC on 
computer network security and related privacy protections in DHS, 
including the Department's role in the CNCI (focusing on the DHS 
Privacy Office's work on PIAs for EINSTEIN 1, EINSTEIN 2, and the 
proof-of-concept pilot project of the EINSTEIN 1 capabilities with the 
U.S. Computer Readiness Team and the State of Michigan), the National 
Cyber Incident Response Plan (NCIRP), and the National Cybersecurity 
and Communications Integration Center, US-CERT, DHS I&A, and the 
National Cybersecurity Center; on July 11, 2011, the Senior Privacy 
Officer for NPPD Emily Andrew described how her office was integrated 
into the NPPD structure.
---------------------------------------------------------------------------
    The DHS Privacy Office (and NPPD) also frequently met with privacy 
        advocates to discuss cybersecurity considerations, either when 
        a new program or initiative was announced, or during the 
        quarterly Privacy Information for Advocates meetings instituted 
        in 2009.\16\
---------------------------------------------------------------------------
    \16\ See DHS Privacy Office Annual Report, July 2009 to June 2010 
at 66 for a discussion of the Privacy Information for Advocates 
quarterly meetings, available at: http://www.dhs.gov/xlibrary/assets/
privacy/privacy_rpt_annual_2010.pdf.
---------------------------------------------------------------------------
    4. Dedicated Cyber Privacy Personnel.--To be engaged and be able to 
        effectively integrate privacy protections, the Department has 
        hired multiple cyber privacy professionals. These cyber privacy 
        professionals focus on integrating the FIPPs of purpose 
        specification, data minimization, use limitation, data quality 
        and integrity, and security systematically into NCSD 
        activities. For example, the Senior Privacy Officer for the 
        National Protection and Program Directorate (reporting to the 
        Directorate leadership) was hired in August 2010; she has a 
        dedicated privacy analyst on-site with CS&C and both are 
        integrated into planning and implementation processes. In the 
        DHS Privacy Office, there has been a liaison with NPPD 
        cybersecurity organizations since the first EINSTEIN PIA was 
        written; currently that position is Director, Privacy and 
        Technology. This Director of Privacy and Technology was, for a 
        period of time, embedded at the NSA as part of the development 
        of the enhanced relationship between the NSA and DHS.\17\
---------------------------------------------------------------------------
    \17\ Memorandum of Agreement Between The Department of Homeland 
Security and The Department of Defense Regarding Cybersecurity, 
September 2010, available at: http://www.dhs.gov/xlibrary/assets/
20101013-dod-dhscyber-moa.pdf.
---------------------------------------------------------------------------
    When I was Chief Privacy Officer, I actively participated in 
        numerous cybersecurity policy planning organizations within the 
        Department.
    5. Involvement and Coordination on Standard Operating Procedures, 
        and Operational Aspects of DHS Cybersecurity Activities.--As 
        part of its mission to implement the FIPPs and to integrate 
        privacy protections into DHS cybersecurity activities, DHS 
        privacy professionals review and provide comments and insight 
        into cybersecurity Standard Operating Procedures (SOPs) 
        (including protocols for human analysis and retention of cyber 
        alerts, signatures, and indicators for minimization of 
        information that could be PII), statements of work, contracts, 
        and international cyber-information sharing agreements.
    6. Cyber-specific Privacy Training for Cybersecurity Analysts and 
        Federal Privacy Professionals.--These cyber privacy 
        professionals provide cyber-specific privacy training to 
        cybersecurity analysts to supplement the privacy training 
        required for DHS employees and contractors. In my opinion as a 
        privacy professional, the more relevant and concrete you can 
        make privacy training, the more likely the audience will 
        understand and incorporate privacy protections into their daily 
        activities, thus increasing personal accountability.
    During my tenure, the Department also engaged in a year-long 
        Speakers Series for members of the Federal Government community 
        to discuss privacy and cybersecurity issues, and their impact 
        on Federal operations.\18\ The Federal Government-wide access 
        to the Speakers Series helped enhance awareness of the 
        cybersecurity and privacy issues, along with providing an 
        interagency communications channel on privacy and cybersecurity 
        questions.
---------------------------------------------------------------------------
    \18\ See DHS Privacy Office Annual Report, July 2011-June 2012 at 
27 for a discussion of the four-part Speakers Series, available at: 
http://www.dhs.gov/sites/default/files/publications/privacy/Reports/
dhs_privacyoffice_2012annualreport_September 2012.pdf.
---------------------------------------------------------------------------
    7. Accountability of the Cybersecurity Program Through Privacy 
        Compliance Review.--An important tenet of the FIPPs is the 
        concept of accountability--periodically reviewing and 
        confirming that the privacy protections initially embedded into 
        any program remain relevant, and that those protections are 
        implemented.
    While I was DHS Chief Privacy Officer, I instituted ``Privacy 
        Compliance Reviews'' (PCRs) to confirm the accountability of 
        several of DHS's programs.\19\ We designed the PCR to improve a 
        program's ability to comply with assurances made in PIAs, 
        System of Records Notices, and formal information-sharing 
        agreements. The Office conducts PCRs of on-going DHS programs 
        with program staff to ascertain how required privacy 
        protections are being implemented, and to identify areas for 
        improvement.
---------------------------------------------------------------------------
    \19\ See id., DHS Privacy Office Annual Report, July 2011-June 2012 
at 39-40 for a detailed discussion of Privacy Compliance Reviews.
---------------------------------------------------------------------------
    Given the importance of the DHS mission in cybersecurity, the DHS 
        Privacy Office conducted a Privacy Compliance Review in late 
        2011, publishing it in early 2012.\20\ The DHS Privacy Office 
        found NPPD/CS&C generally compliant with the requirements 
        outlined in the EINSTEIN 2 PIA and Initiative 3 Exercise PIA. 
        Specifically, NPPD/CS&C was fully compliant on collection of 
        information, use of information, internal sharing and external 
        sharing with Federal agencies, and accountability requirements.
---------------------------------------------------------------------------
    \20\ Privacy Compliance Review of the EINSTEIN Program, January 3, 
2012, available at: http://www.dhs.gov/xlibrary/assets/privacy/
privacy_privcomrev_nppd_ein.pdf.
---------------------------------------------------------------------------
    My office made five recommendations to strengthen program 
        oversight, external sharing, and bring NPPD/CS&C into full 
        compliance with data retention and training requirements. NPPD 
        agreed with our findings and, as I understand it, has taken 
        multiple steps to address our recommendations. For example, in 
        response to one of the recommendations, the NPPD Office of 
        Privacy now conducts quarterly reviews of signatures and 
        handling of personally identifiable information. These reviews 
        have provided increased awareness to US-CERT Staff and has 
        helped to build positive working relationships with cyber 
        analysts and leadership. This is important in continuing to 
        integrate cybersecurity and privacy, by understanding the 
        impact of each.
    In addition, as this subcommittee knows, the DHS Chief Privacy 
        Officer has unique investigatory authorities, therefore in the 
        unlikely event that something went awry in the future, the 
        Chief Privacy Officer can investigate those activities.\21\
---------------------------------------------------------------------------
    \21\ 6 U.S.C.  142(b). See ibid., DHS Privacy Office Annual 
Report, July 2011-June 2012 at 40 for a discussion of the DHS Chief 
Privacy Officer investigatory authorities.
---------------------------------------------------------------------------
      ii. dhs continues to integrate privacy protections into its 
                         cybersecurity programs
    Since I left DHS, I know through public information that the 
Department continues to work to embed privacy protections in its 
cybersecurity activities.
A. DPIAC Cybersecurity Report
    The DPIAC issued a robust advisory paper for DHS to consider when 
implementing information-sharing pilots and programs with other 
entities, including the private sector.\22\ The report addresses two 
important questions in privacy and cybersecurity--``what specific 
privacy protections should DHS consider when sharing information from a 
cybersecurity pilot project with other agencies?'' and ``what privacy 
considerations should DHS include in evaluating the effectiveness of 
cybersecurity pilots?''
---------------------------------------------------------------------------
    \22\ Report from the Cyber Subcommittee to the Data Privacy and 
Integrity Advisory Committee (DPIAC) on Privacy and Cybersecurity 
Pilots, Submitted by the DPIAC Cybersecurity Subcommittee, November 
2012, available at: http://www.dhs.gov/sites/default/files/
publications/privacy/DPIAC/dpiac_cyberpilots_10_29_2012.pdf.
---------------------------------------------------------------------------
    The DPIAC report supported in large part what DHS had been doing 
with regard to privacy protections incorporated in its cybersecurity 
pilots and programs. DPIAC recommended the following best practices 
when sharing information from a cybersecurity pilot project with other 
agencies: Incorporate the FIPPs into cybersecurity activities; develop 
and implement clear data minimization rules and policies; provide 
employees and public users of Federal systems notice and transparency 
of the collection, use, and sharing of information for cybersecurity 
purposes; when engaging in information sharing that includes PII or 
content of private communications, information sharing should be 
limited to what is necessary to serve the pilot's purposes (with 
defined limits on law enforcement, National security, and civilian 
agency sharing); have more robust safeguards for information from 
private networks; define data retention policies to keep records no 
longer than needed to fulfill the purpose of the pilot; and integrate 
privacy by design and privacy-enhancing technologies whenever possible.
    This type of insight from privacy advocates, academicians, and 
private-sector representatives will enhance DHS' considerations of 
privacy-protective options when sharing cybersecurity information.
B. Enhanced Cybersecurity Services PIA
    Furthermore, in January 2013, DHS published a thoughtful and 
comprehensive PIA covering the Enhanced Cybersecurity Services (ECS), a 
voluntary program based on the sharing of indicators of malicious cyber 
activity between DHS and participating Commercial Service 
Providers.\23\ The purpose of the program is to assist the owners and 
operators of critical infrastructure to enhance the protection of their 
systems from unauthorized access, exploitation, or data exfiltration 
through a voluntary information-sharing program. ECS is intended to 
support U.S. critical infrastructure, however, pending deployment of 
EINSTEIN intrusion prevention capabilities, ECS may also be used to 
provide equivalent protection to participating Federal civilian 
Executive branch agencies.\24\
---------------------------------------------------------------------------
    \23\ Privacy Impact Assessment for the Enhanced Cybersecurity 
Services (ECS), January 16, 2013, DHS/NPPD/PIA028, available at: http:/
/www.dhs.gov/sites/default/files/publications/privacy/
privacy_pia_nppd_ecs_jan2013.pdf.
    \24\ This PIA consolidates and serves as a replacement to the two 
PIAs I mentioned earlier: DHS/NPPD/PIA-021 National Cyber Security 
Division Joint Cybersecurity Services Pilot PIA, published on January 
13, 2012, and the DHS/NPPD/PIA-021(a) National Cyber Security Division 
Joint Cybersecurity Services Program (JCSP), Defense Industrial Base 
(DIB)--Enhanced Cybersecurity Services (DECS) PIA Update, published on 
July 18, 2012.
---------------------------------------------------------------------------
    The ECS PIA is exemplary of how to integrate privacy protections 
into cybersecurity programs, particularly when engaging in information 
sharing with the private sector. This ECS PIA is the culmination of all 
of the hard work that I summarized above, including the DPIAC 
cybersecurity report.
    It is clear DHS continues to embed privacy protections into 
cybersecurity activities. The information sharing and implementation 
standards described in the ECS PIA are concrete examples of privacy by 
design, and should well position DHS to effectively implement the 
increased information sharing mandated by the February 12, 2013 
Executive Order on Improving Critical Infrastructure Cybersecurity.\25\
---------------------------------------------------------------------------
    \25\ Executive Order on Improving Critical Infrastructure 
Cybersecurity, available at: http://www.whitehouse.gov/the-press-
office/2013/02/12/executive-order-improving-critical-infrastructure-
cybersecurity.
---------------------------------------------------------------------------
C. EINSTEIN 3 Accelerated (E\3\A) PIA
    In addition, just this week, the Department announced that it will 
deploy EINSTEIN 3 Accelerated (E\3\A) network intrusion prevention 
capabilities on Federal Government networks as a Managed Security 
Service provided by Internet Service Providers (ISPs), rather than 
placing the entire response on the Federal Government.\26\
---------------------------------------------------------------------------
    \26\ Privacy Impact Assessment for EINSTEIN 3--Accelerated (E\3\A), 
April 19, 2013 (DHS/PIA/NPPD-027), available at: http://www.dhs.gov/
sites/default/files/publications/privacy/PIAs/
PIA%20NPPD%20E3A%2020130419%20FINAL %20signed.pdf.
---------------------------------------------------------------------------
    The use of ISPs as a Managed Security Service is noteworthy from a 
privacy perspective for several reasons. First, the coordination and 
collaboration of the ``best of breed'' Federal classified and 
unclassified capabilities combined with the nimbleness (and proprietary 
capabilities) of the private-sector ISPs will allow a more robust 
response to evolving cybersecurity threats. It is an important 
recognition by DHS that Federal cybersecurity programs did not need to 
re-invent cybersecurity protections when defending Federal Government 
networks, but could supplement existing commercial intrusion prevention 
security systems to provide a more robust prevention and detection 
regime for the Federal civilian Executive branch.
    Second, integrating cybersecurity threat detection and intrusion 
prevention will allow DHS to better detect, respond to, or 
appropriately counter, known or suspected cyber threats within the 
Federal network traffic it monitors, which helps protect the target 
systems from unauthorized intrusions (and therefore implements the 
security FIPP). It is important to emphasize--E\3\A monitors only 
select internet traffic either destined to, or originating from, 
Federal civilian Executive branch departments and agencies (commonly 
known as .gov traffic). This data minimization and segregation is also 
privacy-protective; the ISP Managed Security Service can be 
compartmentalized to affect only .gov traffic. The participating 
agencies will identify a list of IP addresses for their networks and 
both CS&C cybersecurity analysts and the ISPs verify the accuracy of 
the list of IP addresses provided by the agency. CS&C SOPs are followed 
in the event of any out-of-range network traffic is identified and the 
ISP removes any collected data to prevent any further collection of 
this network traffic. This too is a privacy-protective approach, 
further confirming that the only impacted traffic is Federal civilian 
Executive branch departments and agencies.
    DHS will share cyber threat information it receives through E\3\A 
consistent with its existing policies and procedures (which have been 
thoroughly reviewed by the Department's cyber privacy professionals). 
In accordance with the SOPs and information-handling guidelines, all 
information that could be considered PII is reviewed prior to inclusion 
in any analytical product or other form of dissemination, and replaced 
with a generic label when possible, again protecting privacy. The way 
E\3\A is structured should enhance privacy, protect the Federal 
civilian Executive branch departments and agencies, and provide a 
nimble response to the evolving cybersecurity threat.
 iii. integration of privacy principles into cybersecurity is crucial 
                  for effective cybersecurity programs
    The continued integration of privacy and cybersecurity is crucial 
for effective cybersecurity protections. In my experience based on 15 
years as a privacy professional as both outside counsel and chief 
privacy officer at DHS, it is clear that integrating privacy into the 
operational aspects of any activity makes the program both more 
effective and more likely to protect privacy. For example, providing 
tailored training, and engaging the analysts or employees in the field 
facilitates the integration of privacy into daily operations. Ex ante 
review of programs and anticipating issues such as unintended uses, 
data minimization, and defined standards for information sharing are 
also important to confirm privacy protections are working throughout 
the life cycle of information collection. Embedding privacy protections 
into SOPs and information-handling guidelines help to further the goal 
of the project while assuring that privacy protections are 
systematically integrated into a program or service. Finally, 
transparency is the cornerstone for any privacy program to succeed.
    These privacy-by-design factors are important any time an 
organization incorporates privacy into a new program, but they are 
particularly important with an operational cybersecurity program such 
the DHS National Cybersecurity Protection System which continuously 
counters emerging cybersecurity threats and applies effective risk 
mitigation strategies to detect and deter these threats. Integrating 
privacy from the beginning--and periodically testing to confirm that 
the integration continues--is the only way to effectively protect 
cybersecurity and privacy. In fact, if done right, increased 
cybersecurity also means increased privacy.
    To address threats and minimize the impact on Federal facilities 
and critical infrastructure, key agencies and critical infrastructure 
companies must share information about cybersecurity threats. That 
said, such information sharing must occur in a thoughtful, clearly-
designed process that also minimizes the impact on individual privacy. 
I believe that DHS has appropriately and effectively integrated privacy 
and cybersecurity both in its Federal Executive branch responsibilities 
and in its information-sharing responsibilities as articulated in the 
ECS and related cybersecurity PIAs. Currently, I advise private-sector 
clients that this privacy-by-design approach should be taken to most 
effectively combat cybersecurity threats by both increasing 
cybersecurity protections and protecting privacy.
    Thank you for the opportunity to appear before you this afternoon. 
I would be happy to take any questions you may have.

    Mr. Meehan. Thank you, Ms. Callahan.
    The Chairman now recognizes Ms. McGuire for your testimony.

     STATEMENT OF CHERI F. MCGUIRE, VICE PRESIDENT, GLOBAL 
      GOVERNMENT AFFAIRS & CYBERSECURITY POLICY, SYMANTEC

    Ms. McGuire. Chairman Meehan, Ranking Member Clarke, and 
distinguished Members of the subcommittee, thank you for the 
opportunity also to testify today on behalf of Symantec 
corporation. We are the largest security software company in 
the world, with over 31 years of experience in providing 
security, storage, and systems management solutions. With more 
than 21,000 employees and operations in more than 50 countries, 
protecting critical infrastructure, Government, and citizens' 
data is core to our mission and our business.
    My name is Cheri McGuire. I am the vice president for 
global government affairs in cybersecurity policy, where I lead 
a team that addresses the global public policy agenda for the 
company, including data integrity, critical infrastructure 
protection, cybersecurity, and privacy issues.
    At Symantec, we are committed to assuring the privacy, 
security, availability, and integrity of our customers' 
information. Too often, security is portrayed as being in 
conflict with or somehow undermining privacy. However, in the 
digital world, nothing could be further from the truth, because 
your privacy is only as secure as your data. Criminals and 
hackers, many of whom are well-funded and highly skilled, have 
built a business model based on their ability to steal and 
monetize personal information.
    Recent efforts to improve the Nation's cybersecurity 
posture have recognized that privacy and security must be 
addressed in tandem. Symantec supports an approach that allows 
to us share threat indicators and related non-PII within 
industry and within Government.
    Now, I would like to talk briefly about today's threat 
landscape. As we briefed the committee last week, our latest 
internet security threat report noted that, in 2012, 
approximately 93 million identities were exposed through 
hacking, theft, and simple user error. We also found that there 
was a 42 percent rise in targeted attacks, an increasing number 
which are directed at small businesses.
    Finally, we saw a 58 percent rise in attacks designed to go 
after mobile devices. Simply put, every year, threats are 
increasing and becoming more sophisticated. Sharing actionable 
threat and vulnerability information is an essential element to 
combating threats like these. As a general rule, we believe 
that voluntary information-sharing programs are the best way to 
develop trusted partnerships to achieve the best results. That 
trust is weakened when Government information-sharing mandates 
are imposed on industry.
    In order for information sharing to be effective it must be 
shared in a timely manner with the right people or organization 
and with the understanding that, as long as an entity shares 
information in good faith, it will not face legal liability.
    In addition, the Government must have the proper tools and 
authorities to disseminate information effectively. We were 
pleased that the Executive Order the President signed in 
February and legislation passed in the House last week sent a 
clear message to the Government that sharing actionable 
information for cybersecurity purposes with the private sector 
is both a priority and a necessity.
    Information sharing on cyber threats happens in a number of 
ways designed to protect our customers and their data. We get 
information from a myriad of sources, from our customers, our 
partners, the Government and our network--and through our 
network, called the global intelligence network of 69 millions 
attack sensors.
    The information itself can be high-level threat data, 
details about a particular incident or attack, data signatures 
or other types of metadata. All of this data is then aggregated 
and analyzed, and during that process, we remove PII. Using 
this data, we develop machine-level signatures and other 
identifying information about specific pieces of malware and 
other threats. We also regularly publish analyses of attacks as 
well as white papers on current and future threat factors.
    In closing, Symantec is deeply committed to securing the 
privacy and security of our customers' information. I hope that 
my testimony today has provided some insight into how we 
protect our customers' privacy and share threat information 
with our various partners while also balancing that with the 
need for robust cybersecurity. Thank you, again, for the 
opportunity to testify today, and I am happy to answer any 
questions you may have.
    [The prepared statement of Ms. McGuire follows:]
                 Prepared Statement of Cheri F. McGuire
    Chairman Meehan, Ranking Member Clarke, and distinguished Members 
of the subcommittee, thank you for the opportunity to testify today on 
behalf of Symantec Corporation.
    My name is Cheri McGuire and I am the vice president for global 
government affairs and cybersecurity policy at Symantec. I am 
responsible for Symantec's global public policy agenda, including 
cybersecurity, data integrity, critical infrastructure protection 
(CIP), and privacy. In this capacity, I work extensively with industry 
and Government organizations, including serving from 2010 to 2012 as 
chair of the Information Technology Sector Coordinating Council (IT 
SCC)--one of 16 critical sectors identified by the President and the 
U.S. Department of Homeland Security (DHS) to partner with the 
Government on CIP and cybersecurity. I also serve as a board member of 
the Information Technology Industry Council, the TechAmerica Commercial 
Policy Board, and the U.S. Information Technology Office (USITO) in 
China, and am a past board member of the IT Information Sharing and 
Analysis Center (IT-ISAC). Prior to joining Symantec in August 2010, I 
was director for critical infrastructure and cybersecurity in 
Microsoft's Trustworthy Computing Group. Before joining Microsoft in 
2008, I served in numerous positions at DHS, including as acting 
director and deputy director of the National Cyber Security Division 
and U.S. Computer Emergency Readiness Team (US-CERT).
    Symantec is the largest security software company in the world, 
with over 31 years of experience in developing internet security 
technology. We are the global leader in providing security, storage, 
and systems management solutions to help consumers and organizations 
secure and manage their information and identities. We protect more 
people and businesses from more on-line threats than anyone in the 
world. Symantec has developed some of the most comprehensive sources of 
internet threat data through our Global Intelligence Network (GIN). 
Comprised of approximately 69 million attack sensors, the GIN records 
thousands of events per second and covers over 200 countries and 
territories 24 hours a day, 7 days a week. It allows us to capture 
world-wide security intelligence data that gives our analysts an 
unparalleled view of the entire internet threat landscape, including 
emerging cyber attack trends, malicious code activity, phishing, and 
spam.
    Symantec also maintains one of the world's most comprehensive 
vulnerability databases, currently consisting of more than 51,000 
recorded vulnerabilities (spanning more than 2 decades) from over 
16,000 vendors representing over 43,000 products. Every day we process 
more than 3 billion e-mail messages and more than 1.4 billion web 
requests across our 14 global data centers. In short, if there is a 
class of threat on the internet, Symantec knows about it.
    At Symantec, we are committed to assuring the privacy, security, 
availability, and integrity of our customers' information. Too often 
security is portrayed as being in conflict with or somehow undermining 
privacy. In the digital world, nothing could be further from the truth, 
because your privacy is only as secure as your data.
    We welcome the opportunity to provide comments as the committee 
continues its important efforts to bolster the state of cybersecurity 
while protecting privacy in the United States and abroad. In my 
testimony today, I will provide the subcommittee with:
  <bullet> our latest analysis of the threat landscape as detailed in 
        the just-released Symantec Internet Security Threat Report 
        (ISTR), Volume 18;
  <bullet> our core privacy principles;
  <bullet> an overview of the current information-sharing environment; 
        and
  <bullet> a summary of how we ensure privacy when we share threat 
        information.
                        today's threat landscape
    We rely on technology for virtually every aspect of our lives, from 
driving to and from work, to mobile banking, to securing our most 
critical systems. As the use of technology increases so do the volume 
and sophistication of the threats. At Symantec, it is our goal to 
ensure that we are thinking ahead of the attackers. Looking at the 
current threat landscape is not enough--we must also keep our eyes on 
the horizon for evolving trends.
    In the latest Symantec Internet Security Threat Report (ISTR), we 
detail that in 2012, approximately 93 million identities were exposed 
through hacking, theft, and simple error. That is 93 million 
individuals whose personal information is now potentially for sale in 
the black market--93 million people who are at risk for credit card 
fraud, identity theft, and other illegal schemes.
    We also found that there was a 42 percent rise in targeted attacks 
last year.\1\ It is almost certain that this trend will continue in the 
coming years. Conducting successful targeted attacks requires attackers 
to do research about the organizations they are seeking to penetrate, 
and often about specific people who work there. Attackers will mine the 
internet for information about how a company does business and use what 
they learn to craft personalized attacks designed to gain access to its 
systems. Once they gain access, they will move within a system, 
collecting information and staging data for exfiltration--the 
unauthorized transfer or release of data from a computer or server--to 
their own computers. Attackers can spend weeks and months covertly 
moving around a victim's system, collecting e-mail, personal data, 
documents, intellectual property, and even trade secrets.
---------------------------------------------------------------------------
    \1\ Symantec Internet Security Threat Report XVIII, April 2013. 
http://www.symantec.com/security_response/publications/
threatreport.jsp.
---------------------------------------------------------------------------
    We also saw a sharp rise in the exploitation of mobile malware. 
Last year, mobile malware increased by 58 percent, and 32 percent of 
all mobile threats attempted to steal personal information, such as e-
mail addresses and phone numbers. Attacks on mobile devices will almost 
certainly continue to rise as we become ever more reliant on these 
devices to perform our daily activities, such as working, banking, 
shopping, and social networking.
    Another alarming finding was the rise of attacks on small and 
medium-size businesses. In 2012, 50 percent of all targeted attacks 
were aimed at businesses with fewer than 2,500 employees, and the 
largest growth area for targeted attacks was aimed at businesses with 
fewer than 250 employees. Thirty-one percent of all attacks targeted 
them, up from 18 percent the year before. This likely stems from the 
fact that unlike large enterprises, smaller businesses often do not 
have the resources to install adequate security protocols, making them 
an easier target for attackers. Yet many of these small companies 
subcontract or work for larger companies--and thus hold intellectual 
property and trade secrets coveted by attackers. As one of our security 
engineers likes to say, while every subcontractor may sign a strict 
non-disclosure agreement, the attacker who is sitting on that small 
company's system is not bound by it.
    In sum, whether they are attacking our computers, mobile phones, or 
social networks, cyber-criminals are looking to profit by spying on us 
or stealing our information. Our best defense is strong security, 
education, and good computer hygiene.
                  privacy and security go hand-in-hand
    At Symantec, we are guided by the following privacy principles: 
First, customers should be empowered to decide how their personal 
information is used, and informed what--if anything--will be done with 
it. Second, privacy protections must be integrated into the development 
of products or services and not added as an afterthought. Finally, we 
all need to be proactive in protecting privacy--absent strong security, 
information is vulnerable.
    Criminals and hackers--many of whom are well-funded and highly 
skilled--have built a business model based on their ability to steal 
and monetize personal information. There is an entire criminal eco-
system that trades in stolen personal information, as well as the tools 
and technology that allow them to steal more. Some of these criminal 
enterprises are so sophisticated that they provide 24/7 customer 
support, and offer guarantees that the stolen information they provide 
is valid.
    In the face of this criminal threat, it should go without saying 
that strong security is essential to securing our personal data and 
private information. Simply put, if your data is not secure, then 
neither is your privacy. And, if you do not take steps to secure your 
own personal information, or the companies to which you entrust it do 
not do so, you are gambling with your privacy. When it comes to 
personal data, security measures and data protection are not an 
infringement on privacy but instead are the foundations of protecting 
it.
    Recent efforts to improve the Nation's cybersecurity posture--
whether legislative initiatives or Executive branch actions--have 
recognized that privacy and security must be addressed in tandem. The 
various bills in the House and the Senate have taken different 
approaches, but in the information-sharing area there is broad 
agreement that both the Government and the private sector need to be 
able to share cybersecurity information for cybersecurity purposes. 
This view also is shared by many prominent civil society organizations. 
Reaching consensus on the precise parameters of those terms is where 
complications have arisen. Symantec supports an approach that allows us 
to share threat indicators and related non-Personally Identifiable 
Information (PII) within industry and with the Government. In our view, 
companies should receive legal protection for sharing appropriate 
information with other companies or civilian agencies, and we believe 
that data minimization standards are a reasonable approach.
              the current information-sharing environment
    Globally, there are many different information-sharing models, 
ranging from voluntary programs to regulatory mandates to ad hoc 
arrangements to contractual agreements. Sharing can be Government-to-
Government, business-to-business, and between Government and business. 
As a general rule, we believe that voluntary programs--which of course 
leave space for contractual and ad hoc arrangements--are the best way 
to develop trusted partnerships to achieve the best results. In the 
United States, we have a voluntary framework based on the National 
Infrastructure Protection Plan (NIPP).\2\ The NIPP, as refined by the 
recent Presidential Decision Directive 21, establishes 16 critical 
infrastructure sectors and identifies a sector-specific Federal agency 
for each.\3\
---------------------------------------------------------------------------
    \2\ National Infrastructure Protection Plan (2009), http://
www.dhs.gov/xlibrary/assets/NIPP_Plan.pdf.
    \3\ The 2009 National Infrastructure Protection Plan (http://
www.dhs.gov/xlibrary/assets/NIPP_Plan.pdf) identified 18 critical 
infrastructure sectors. Presidential Decision Directive 21 (Critical 
Infrastructure Security and Resilience, signed February 12, 2013) 
revised that to 16. See http://www.whitehouse.gov/the-press-office/
2013/02/12/presidential-policy-directive-critical-infrastructure-
security-and-resil.
---------------------------------------------------------------------------
    Within each sector, there are Government Coordinating Councils 
(GCC) and Sector Coordinating Councils (SCC). Nearly all sectors also 
have chartered Information Sharing and Analysis Centers (ISAC), 
operational entities that are tied to industry and serve as a focal 
point for voluntary information sharing. The level of trusted 
partnership and engagement among the GCCs, SCCs, and ISACs varies from 
sector to sector. Symantec has a long and successful history of 
participation and leadership in various multi-industry organizations as 
well as public-private partnerships in the United States and globally, 
including the National Cyber-Forensics & Training Alliance (NCFTA), the 
IT-ISAC, the Industry Botnet Group Mitigation Initiative, and many 
others.
    Effective sharing of actionable information among the public and 
private sectors on cyber threats, vulnerabilities, and incidents is an 
essential component of improving cybersecurity. It is important to 
recognize that information sharing is not an end goal, but rather is 
one of a number of tools to enhance the security of IT systems. Good 
information sharing provides situational awareness so that appropriate 
protective and risk mitigation actions can be put into place. In order 
for information sharing to be effective, information must be shared in 
a timely manner, must be shared with the right people or civilian 
organizations, and must be shared with the understanding that so long 
as an entity shares information in good faith, it will not face legal 
liability.
    The NCFTA provides a good example of how private industry and law 
enforcement partnerships can yield real-world success. NCTFA is a 
Pittsburgh-based organization that includes more than 80 industry 
partners--from financial services and telecommunications to 
manufacturing and others--working with Federal and international 
partners to provide real-time cyber threat intelligence.
    The IT-ISAC is another example of a successful public-private 
partnership. The group's primary purpose is to allow organizations to 
exchange information about security threats and vulnerabilities. Member 
companies report information concerning security problems that they 
have or solutions to such problems that they have found. Members also 
participate in National and homeland security efforts to strengthen IT 
infrastructure through cyber threat information sharing and analysis. 
The IT-ISAC also has an industry-funded representative that works at 
the National Cybersecurity & Communications Integration Center (NCCIC) 
to facilitate real-time information sharing and response.
    One of the most successful U.S. public-private partnerships has 
been cybersecurity exercises. The level of engagement and resources 
brought to bear from the Government and industry to jointly plan and 
develop scenarios, define information-sharing processes, and execute 
the exercises has been unprecedented. When done right, the lessons 
learned from these exercises have been invaluable to both industry and 
Government to help improve response plans and improve preparedness for 
future incidents.
    In addition, the Government must have the proper tools and 
authorities to disseminate information effectively. I have seen too 
many instances of the Government releasing information on cyber threats 
days and sometimes weeks after a threat has been identified. In many of 
these cases, by the time the Government releases the information it 
often has little use because the private sector has already identified 
and taken actions to mitigate the threat. There is no single solution 
that will eliminate these delays, but various legislative proposals 
move us one step closer to eliminating some of the legal barriers that 
currently impede sharing. Moreover, the Executive Order (EO) the 
President signed in February 2013 sent a clear message to the 
Government that sharing information with the private sector is both a 
priority and a necessity.\4\
---------------------------------------------------------------------------
    \4\ See Executive Order 13636, ``Improving Critical Infrastructure 
Cybersecurity,'' 78 Fed. Reg. 11739 (February 19, 2013).
---------------------------------------------------------------------------
    Further, we also support an incentive-based approach to information 
sharing. There is no doubt that businesses can gain a competitive 
advantage by not disclosing information to their competitors. However, 
a well-incentivized program of collaboration can help offset those 
disadvantages and keep the information flowing freely. We also need to 
address policies that discourage businesses who would be willing to 
share information but choose not to because of fear of prosecution. 
Therefore, liability protections are necessary to improve bi-
directional information sharing.
    As with any partnership, information sharing is founded upon and 
enabled by trust. That trust is weakened when Government information-
sharing mandates are imposed on industry. Enhanced self-interest and a 
flexible approach are more likely to improve information sharing than 
Government mandates.
           protecting privacy as we share threat information
    At Symantec, we understand the vital importance of sharing 
information for cybersecurity awareness and response. We recognize that 
information stored on our servers is sensitive, confidential, and often 
personal in nature. Therefore, we take very seriously our role in 
safeguarding our customer's personal information and go to great 
lengths to ensure that personal information remains private.
    Information pertaining to customers such as credit card 
information, addresses, or other PII is not shared under any 
circumstances unless we are compelled by law, following appropriate due 
process. In addition, we comply with the Payment Card Industry Data 
Security Standard and follow specific rules under our privacy program 
to ensure that we collect only data that is proportionate for the 
purposes for which it is collected, and that is relevant and necessary 
for the services provided.
    Information sharing on cyber threats happens in a number of ways 
and for various reasons. We get information from myriad sources--from 
our customers, our partners, the Government, and our network of 
sensors. The information itself can be high-level threat data, details 
about a particular incident or attack, data signatures, or other 
information. All of this data is then aggregated and analyzed, and 
during that process we remove PII. The resulting work product can range 
from machine-level signatures or identifying information for a specific 
piece of malware to a quick analysis of a particular attack to a 
published white paper on current and future threat vectors. This work 
product can then be provided to our customers and partners in both the 
private sector and the Government, depending on the particular 
parameters of the sharing agreement.
    In some cases, the communication is purely bilateral--a customer 
provides us information about activity on its system (either manually 
or through an automated sensor), and we report back on what we see 
happening. Other times we share it broadly, including sometimes 
publicly, but only after removing any PII to ensure that the report 
cannot be linked to a particular individual or customer. When we share 
reports on attack trends or publish white papers on particular threats, 
PII is removed as part of long-standing policy and we only share 
information directly related to the cyber threat. We have legal and 
organizational safeguards to ensure that information is only disclosed 
to the intended partners and only used for the expressed purpose.
    In closing, Symantec is deeply committed to securing the privacy 
and security of our customer's information. Thank you again for the 
opportunity to testify, and I will be happy to answer any questions you 
may have.

    Mr. Meehan. Thank you, Ms. McGuire.
    The Chairman now recognizes Ms. Pearson to testify.

    STATEMENT OF HARRIET P. PEARSON, PARTNER, HOGAN LOVELLS

    Ms. Pearson. Thank you very much, Chairman Meehan, Ranking 
Member Clarke, and Members of the subcommittee.
    My name is Harriet Pearson. I am a partner in the Hogan 
Lovells law firm, where I focus on cybersecurity and privacy 
law. From November 2000 until July 2012, I served as the IBM 
corporation's chief privacy officer and security counsel, and I 
have been engaged in this area of privacy and security since 
the mid-1990s.
    Thank you for the opportunity to participate in today's 
hearing on how we in the United States in the business 
community and in Government can protect our critical 
infrastructure from cyber-based threats while safeguarding 
individual privacy.
    Let me start with the observation that the relationship 
between cybersecurity and privacy is complex, as we have heard. 
On the one hand, cybersecurity that protects data from 
intrusion, theft, and misuse obviously is a significant privacy 
safeguard that cannot be understated. On the other hand, some 
cybersecurity measures that monitor access and use of systems 
and digital networks can implicate the collection of personal 
information, or PII, where data can be linked to individuals 
and thus raises some privacy concerns.
    Understanding that relationship and integrating privacy 
into cybersecurity has never been more important. As we have 
heard and as the committee well knows, the threat is out there. 
There are risks, and the risks come in multiple forms, 
particularly for those businesses that are part of the critical 
infrastructure and that have to take these measures. The 
private sector's role in this respect is vital. You know that 
the critical information, much of it and much of the most 
valuable intellectual property of our society are owned and 
managed largely by the private sector. Therefore, the steps 
that companies take to safeguard their most precious 
possessions and assets and figuratively to lock up and secure 
their premises are very significant. Increasingly companies are 
stepping up to that challenge and taking those measures.
    Let me articulate a couple of, or give you a couple of 
examples of the kinds of measures that might implicate some 
level of collection or access to potentially personal 
information. There are some measures, such as systems and 
network monitoring; you have to know what is going on in your 
systems. You might have to access and collect some personal 
information. Background checks, more of us are bringing our own 
devices and hooking them up to sensitive or important networks, 
and you have to make and take safeguards. Supply chain and 
vendor networks need to be secured, and sometimes you need 
information. Information sharing, as has been discussed with 
Government and other entities in the private sector, might also 
at times implicate some kind of personal information and thus 
steps need to be taken.
    My recommendations for how these concerns can be addressed 
start with the premise that it can be addressed. There are 
responsible ways and many organizations are already taking 
those steps in the business community. Some suggestions for how 
and observations on how organizations are taking those steps 
include, first, we have talked already on the panel, and 
Chairman and Ranking Member talked about the Fair Information 
Practice Principles, or the FIPPs. That is an important acronym 
to keep in mind in my view. Applying the FIPPs is what privacy 
professionals do in the United States all day long, every day, 
in many situations. Applying FIPPs to information sharing and 
other cybersecurity measures and steps is absolutely critical.
    Second, one of the most foundational elements of the FIPPs 
is this notion of transparency, articulating what you are 
doing, educating and being open about the steps taken, not of 
course to the degree that it compromises the important security 
measures that need to be taken but articulating it so that 
there is some understanding of the measures and that there is 
some ability to say, hmm, what is going on, let's have a 
conversation about it in the democratic tradition of the United 
States.
    Third, we have in this country a tradition of creating 
codes of conduct, voluntary measures that once organizations 
buy into them and engage in them, actually become quite 
important as a measure of establishing base lines of behavior 
in business. I endorse the development of voluntary codes of 
conduct for the privacy-sensitive deployment of certain 
cybersecurity measures and programs that are common enough to 
warrant such effort. Examples of this might include 
information-sharing codes of conduct in which organizations 
that engage in information-sharing partnerships with each other 
and with Governmental agencies developed and commit to adopt 
privacy-sensitive practices such as the one that Ms. McGuire 
mentioned.
    Another example is the new work that is being undertaken by 
NIST, as mandated by the recently-issued Executive Order on 
critical infrastructure cybersecurity, to develop a privacy--to 
develop a cybersecurity framework. As you know, NIST is 
consulting with multiple stakeholders on the development of 
this kind of framework, and the committee can play an important 
role in asking about and looking at the kind of privacy for 
consideration built into that framework.
    Finally, through law, the expectations, responsibilities, 
and legal protections for privacy when data is shared or 
requested by Government in particular need to be clear, and 
there have been certain legislation enacted through this house 
that have clarified the role and some important progress and 
language has been included in that and further efforts by 
Government and industry leaders outside of this kind of 
legislation will also be useful to educate and enable 
stakeholders involved in these activities to design privacy in 
information sharing and related activities.
    Thank you for the opportunity to appear before you today, 
and I will be happy to take questions.
    [The prepared statement of Ms. Pearson follows:]
                Prepared Statement of Harriet P. Pearson
                             April 25, 2013
    Chairman Meehan, Ranking Member Clarke, and Members of the 
subcommittee, my name is Harriet Pearson and I am a partner in the 
Hogan Lovells law firm, where I focus on cybersecurity and privacy 
law.\1\ From November 2000 until July 2012 I served as the IBM 
Corporation's chief privacy officer and security counsel.
---------------------------------------------------------------------------
    \1\ My professional service includes membership on the advisory 
boards of the Future of Privacy Forum and the Electronic Privacy 
Information Center. I was a founding and long-time member of the board 
of the International Association of Privacy Professionals. I also serve 
on the American Bar Association president's Cybersecurity Legal Task 
Force, co-chair the Cybersecurity Law Institute of the Georgetown 
University Law Center, and was a member of the CSIS Commission on 
Cybersecurity for the 44th Presidency. The views I express are mine 
only, and are not offered on behalf of Hogan Lovells or its clients, or 
other organizations.
---------------------------------------------------------------------------
    Thank you for the opportunity to participate in this hearing on how 
we in the United States can protect our critical infrastructure from 
cyber-based threats while safeguarding individual privacy.
    The relationship between cybersecurity and privacy is complex. On 
the one hand, cybersecurity that protects data from intrusion, theft, 
and misuse obviously is a significant privacy safeguard. On the other 
hand, cybersecurity measures that monitor access and use can implicate 
the collection of personal information (or data that can be linked to 
individuals), and thus raises privacy concerns.
    Organizations of all types increasingly are taking steps to protect 
themselves and the people that rely on them from cyber-based threats. 
Cyber threats come from many different sources. The risk to information 
systems and the data that resides or travels on them can come from 
activists, criminals, or spies. Most of the time, these bad actors 
attack from outside the company; sometimes, they strike from within. 
Frequently they are enabled by the carelessness or inattention of 
otherwise well-meaning individuals who leave the digital analog of the 
front door open for easy entry. And sometimes there is no affirmative 
attack at all, as in case where a system malfunction occurs or 
sensitive data is lost or misdirected by accident--presenting risks 
that are still quite significant if such information gets into the 
wrong hands.
    Since the critical infrastructure and the most valuable IP of our 
society are owned and managed largely by the private sector, the steps 
companies take to safeguard their most precious possessions and 
figuratively to lock their doors, close their windows, and make sure 
only authorized people and things cross the threshold are exactly the 
steps needed to improve cybersecurity for society at large. Sharing 
information about observed threat patterns and vulnerabilities with 
other companies and with appropriate authorities is also part of the 
mix. This is akin to participating in a neighborhood watch that 
involves proactive and collaborative engagement with law enforcement.
    While adoption of cybersecurity defenses will, as I noted, serve to 
protect personal data (indeed, there can be no data privacy without 
sufficient security, including cybersecurity), some of the defense 
techniques may require the monitoring or collection of personal 
information, and thus implicate privacy concerns.
  <bullet> First, there is network and system monitoring.--Experts 
        agree that in order to detect and defend against cyber attacks, 
        organizations should be aware of how their information networks 
        and IT systems are behaving. Such monitoring typically is 
        focused on non-personal information such as malware indicators, 
        bad IP addresses, and network flow data. Of course, the more 
        specifically one monitors, and potentially records, activity, 
        the more potential there is that personal data will be part of 
        the information reviewed and/or collected.
  <bullet> The next issue is that of background checks.--Not all cyber-
        defense measures involve cyber tactics. Organizations 
        frequently find it prudent to conduct background checks--at 
        times quite extensive--on individuals with access to certain 
        sensitive systems and data. By definition, background checks 
        require the collection and use of personal information.
  <bullet> A new aspect of data security arises from the ``Bring Your 
        Own Device'' phenomenon.--An increasing number of organizations 
        are allowing their workforce to use personally-owned 
        smartphones, PCs, and other devices. The steps organizations 
        take to secure such devices and the data that might be stored 
        on them often involve access to personal data.
  <bullet> Steps taken to strengthen supply chain and vendor security 
        may also raise privacy issues.--Security-conscious enterprises 
        understand that the weakest link in their organization may lie 
        outside their formal control. Measures imposed on their vendors 
        and suppliers may require those third parties to conduct 
        background checks and share other information that has privacy 
        implications.
  <bullet> Information sharing with third parties and Government 
        agencies means that personal information may be shared.--
        Finally, but importantly, experts agree that rapid and 
        preferably automated cross-organizational sharing of cyber 
        threat information is essential to help detect and defend 
        against cyber attacks. And as Members well know, given the 
        recent passage of H.R. 624, the Cyber Intelligence Sharing and 
        Protection Act, there can be significant privacy issues raised 
        by such sharing.
    While each of these areas of cybersecurity techniques raises 
privacy concerns, those concerns can be addressed responsibly.
    First, consistent with the well-known Fair Information Practice 
Principles,\2\ data collection should be thoughtfully limited; used 
only for the purpose of security or other carefully considered and 
approved purposes; retained only for as long as needed for security and 
other legitimate purposes; and shared only with those that need the 
data for security or other carefully considered and approved purposes, 
with accompanying limitations on their sharing, use, and retention. 
These are concepts that privacy professionals in American business 
apply every day, and close collaboration between privacy professionals 
and security personnel at companies is essential to ensure that the 
security/privacy balance is correct and that Fair Information Practice 
Principles are applied to design privacy into cybersecurity programs.
---------------------------------------------------------------------------
    \2\ The U.S. privacy framework is based on underlying principles of 
fairness known as ``Fair Information Practice Principles'' or 
``FIPPs,'' which were first developed in the United States in the 1970s 
and have since influenced every privacy law, regulation, or code of 
conduct adopted in this and many other nations. The Fair Information 
Practice Principles focus on empowering individuals to exercise control 
over personal information that pertains to them, and on ensuring that 
measures are taken to achieve adequate data security.
---------------------------------------------------------------------------
    Second, there should be transparency as to the cybersecurity 
measures that organizations, especially operators of critical 
infrastructure, increasingly are using. Transparency is fundamental to 
the Fair Information Practice Principles. When implemented, it 
reassures individuals that the processing of information that relates 
to them is not being done in secret, thus enabling them to pursue any 
recourse available if necessary.
    As it relates to cybersecurity measures, transparency would include 
encouraging companies that are deploying network and systems monitoring 
to disclose their use of such measures (not in sufficient detail as to 
defeat their operations, of course, but in enough detail that 
individuals know about the systems monitoring the use of workplace 
technologies and the like). The more we inform and educate each other 
about how cybersecurity systems work, and how privacy considerations 
are addressed in their design and implementation, the more these 
measures are demystified.
    Third, I endorse the development of voluntary codes of conduct for 
the privacy-sensitive deployment of cybersecurity measures and programs 
that are common enough to warrant such effort. Examples might include 
information-sharing codes of conduct, in which organizations that 
engage in information-sharing partnerships with each other and with 
Governmental agencies develop and commit to adopting privacy-sensitive 
practices. Another example is new work by the National Institute for 
Standards and Technology as mandated by the recently-issued Executive 
Order on Improving Critical Infrastructure Cybersecurity, to develop a 
voluntary Cybersecurity Framework that includes consideration of 
privacy. As you know, NIST will be consulting with stakeholders in both 
Government and industry as it develops the Framework. This subcommittee 
can keep the focus on privacy issues by showing interest in, and 
requesting to see, how privacy is integrated into NIST's and others' 
cybersecurity efforts.
    Finally, the expectations, responsibilities, and legal protections 
for privacy when data is shared with or requested by Government need to 
be clear. Legislation that clarifies the rules surrounding information 
sharing is a valuable first step, and it is encouraging to see that the 
privacy issues associated with information sharing have been discussed 
and that language addressing these issues has been included in the 
legislation proposed in this Congress. Further efforts by Government 
and industry leaders, outside of new legislation, will also be useful 
to educate and enable stakeholders involved in these activities to 
design privacy into information sharing and related activities.
    Thank you for the opportunity to appear before you today and to 
present my thoughts on how we can achieve a meaningful balance between 
privacy and protecting the United States' critical infrastructure.

    Mr. Meehan. Thank you, Ms. Pearson.
    Thanks, each of you on the panel, for helping us to set the 
table on this issue. Let me begin, because I think that may be 
one of the places for us to begin to draw the parameters around 
this issue to get to the places where we think the real crux of 
the privacy issues find themselves.
    I was struck your testimony, Ms. Callahan, where you said, 
if done right, increased cybersecurity with appropriate 
standards and procedures also means increased privacy.
    Ms. McGuire, you testified that security is portrayed as 
being in conflict with or somehow undermining privacy; in the 
digital world, nothing could be further from the truth.
    Ms. Pearson, you discussed a little bit where there may be 
some sort of conflicts, but at the same time, there are some 
steps being taken. You talked about FIPPs.
    Maybe that is a good place to start. I would like your 
general observations, each in order, about what you believe are 
the important steps that are being taken to create the privacy 
protections while we enable information to be shared and maybe 
specifically what FIPPs is and how that enhances this ability. 
Ms. Pearson or others, if you have an area in which you find 
you say ``but,'' don't tell hesitate to tell us what the 
``but'' is.
    Ms. Callahan, I will recognize you.
    Ms. McGuire, Ms. Pearson, in order.
    Ms. Callahan. Thank you very much, sir.
    My testimony with regard to increased cybersecurity can 
enhance increased privacy goes to the FIPP of security because 
the information has to be kept secure; it has to be kept 
contained. Ms. McGuire testified about 93 million exposed 
identities, and those people did not have the FIPPs to protect 
them in that circumstance. But what is important is the 
parenthetical that you read of mine, which is, you have to have 
the appropriate standards, procedures, and safeguards within 
that in order to protect that information.
    Mr. Meehan. Can you take one moment and tell me 93,000 
people----
    Ms. Callahan. Ninety-three million identities.
    Mr. Meehan [continuing]. Did not have the FIPPs. Would you 
explain what you mean by that?
    Ms. Callahan. It is Ms. McGuire's number, but I think it 
involves data breaches, ma'am.
    Ms. McGuire. The number was 93 million identities that were 
lost or stolen in 2012, and that could be through any number. 
It could be cyber attacks, laptops stolen, et cetera.
    Mr. Meehan. Okay.
    Ms. Callahan. So the concept of unauthorized access, 
whether we are talking about it as a laptop or a device, as Ms. 
Pearson talked about, or an actual cyber attack, where an 
organized cyber criminal is taking the information. In that 
circumstance, not all FIPPs prevent. That is my point about 
security as an important element to the protection of privacy, 
because if you can't keep the information secure, then you 
can't have privacy, but you can enhance it if indeed you have 
the proper safeguarding.
    Mr. Meehan. So, in other words, even though the Government 
may not be getting that information for 94 million people, it 
is already out there in not only the private sector but out 
there in the world of criminality and otherwise.
    Ms. Callahan. That is correct. It could be as much as that. 
That we need to mitigate that and address that going forward.
    Mr. Meehan. Ms. McGuire.
    Ms. McGuire. So I think it might be useful for me to take a 
little bit about Symantec's sort-of, our privacy principles, 
and we have three of those: First, that we believe that 
customers should be empowered to decide how their personal 
information is used and informed what, if anything, will be 
done with it; and second, that privacy protections must be 
integrated into the development of products and services and 
not added as an after-thought; and finally, that we all need to 
be proactive in protecting our own privacy, and absent strong 
security, as I said before, information is vulnerable. We take 
a number of steps as a company to secure the privacy, the PII 
information of our customers and our partners and those are 
tied directly to the FIPPs, as Ms. Callahan discussed, as well 
as a number of internal policies, privacy policies, and privacy 
impact tools that we use across our company. So I think it has 
to be a multi-pronged approach, both with informing customers 
as well as developing your own internal policies and practices 
to safeguard that personally identifiable information.
    Mr. Meehan. Where do you come down on the industries 
developing personal policies, but where does the Government 
come in on creating policies that the industry needs to adhere 
to?
    Ms. McGuire. Well, I think that, as Ms. Pearson talked 
about, this notion of voluntary or codes of conduct that have 
been developed over time, the adoption of those can be quite 
useful, as well as internationally developed standards that 
many times those codes of conduct form the basis for as it 
moves through the standard development process.
    Mr. Meehan. I am worried about the changing nature of the 
threat and whether or not we will be able to create consistent, 
sort-of, this is today's standard, it may be less relevant 
tomorrow if there are new technologies or new ways to get 
around it.
    Ms. McGuire. Well, I think you raise a very, very important 
point, and that is standards need to be flexible enough so 
that, as time evolves, the nature of the threat evolves, that 
they can evolve--the standard can evolve as well. Sometimes if 
they are written too tightly, they will constrict the ability 
to respond and deal with the next level of threat as it 
evolves.
    Mr. Meehan. Thank you.
    Ms. Pearson, my time is up, but your time is still ticking 
to answer and be responsive to any of the issues that were 
raised.
    Ms. Pearson. What I will say is that the Fair Information 
Practice Principles were developed in the United States over 30 
years ago, and they are still as good today as they were back 
then. So that shows the power of having principles that can 
guide our behaviors. When it comes to identifying what kind of 
information you collect, if you are a business trying to 
protect your assets and your people and then share, there are 
some really foundational questions, which is: What am I doing, 
what am I collecting, do I really need to collect it? The 
answer may be, no, or the answer may be I do collect a lot of 
information so that I can identify patterns, so I can see 
abhorrent uses, so I can secure my networks. Once you decide on 
kind of a principle level, what are you collecting, the 
question then becomes: What do you need to share it, what 
exactly do you need to share? From my own experience and 
personal experience with my clients, I know that the vast 
majority of the information involved in addressing cyber 
threats has nothing to do with individuals. It is IP addresses. 
It is the signatures. It is very technical information. So when 
it comes time to share that information, that really is not a 
privacy-related concern. Where there might be information that 
relates to individuals, then the question becomes: Do you need 
to share it? How important is it to the mission involved or to 
the goal? Are there abilities to strip or share or amass or 
protect that information? That is really the question.
    Operationally speaking, I see companies more and more being 
able to do that. I see innovation in the marketplace, American 
innovation on the part of the companies, like Ms. McGuire's and 
others, coming up the curve to help deal with that particular 
privacy issue and help address technical or operational or 
market measures. That is what I see.
    Then, finally, as you deal with industry-to-Government, the 
question I think that you are all in an excellent place to 
address is: What will Government do with it? What will happen 
to it, and what kind of assurances back and forth are in place 
to make predictable to the American people and to business what 
happens to that information, including protecting its 
confidentiality for privacy purposes as well as business 
confidentiality purposes?
    Mr. Meehan. Thank you.
    My time has expired, and now, at the suggestion of the 
Ranking Member, we are going to go out of order and recognize 
the gentlemen from Nevada, Mr. Horsford, for questioning.
    Mr. Horsford. Thank you very much, Mr. Chairman.
    Thank you to the Ranking Member, I appreciate the courtesy 
to our witnesses, and thank you for being here.
    Just briefly, obviously, this is an important National 
security issue, and the need for qualified cybersecurity 
experts has grown at the same time. Everyone from our President 
to the GAO has said that we have to address this as a serious 
economic challenge, both in the public and private sectors.
    Now it appears that our ability to meet the cybersecurity 
workforce needs of the Nation are not fully understood or fully 
quantified. Would you recommend that the Federal Government 
work with the private sector as well as training and 
educational institutions to address the problem of kind of the 
workforce areas of cybersecurity? If so, how?
    Ms. McGuire. So, really important this issue of workforce 
development and education and training for the future 
cybersecurity experts and workers of the future. Today, we have 
a number of public-private partnerships between industry and 
Government that have been quite effective. Unfortunately, they 
are not effective enough because the demand is so high for 
these types of high-skilled employees in the future, but things 
like the National Cybersecurity Alliance, the National 
Initiative for Cyber Education, that DHS and NIST and the 
Department of Defense and Commerce are leading, those are the 
kinds of efforts, as well as National Science Foundation's, 
Cyber Corps to train up that next generation.
    We need more of those kinds of programs, frankly, in order 
to meet the challenge of this deficit. It really is a deficit 
that we have. I can tell you today, as a company, we have more 
than a thousand openings, a thousand job openings, for high-
skilled engineers, and we could go across any number of high-
tech companies as well as manufacturing and other industries, 
who cannot meet the challenge today. That really is impacting 
our country's economics moving forward.
    Ms. Callahan. I would note briefly the Secretary and Deputy 
Secretary have testified before this committee asking for such 
flexibility, and these initiatives that Ms. McGuire spoke about 
are helpful, but I think that we need to do more to really help 
buttress the cybersecurity options.
    Ms. Pearson. One thought on privacy aspects here, as I have 
worked with cybersecurity professionals, the best ones have 
taken training and have an enormous degree of sensitivity to 
the importance of privacy as they work on defending against 
attacks and also safeguarding information. So an element of 
cybersecurity curricula ought to be, and I believe it is in 
most of these programs, an element of data protection or 
privacy training as well.
    Mr. Horsford. So gathering all of these, like you said, 
initiatives and public-private partnerships to know what is out 
there and what is working and where the gaps might be, steps 
this committee could take to move some ideas forward.
    Let me also ask, as I said, cyber threats are both in the 
private and public sector. I am from Nevada, and we have a 
large number of facilities critical to National security. The 
Nevada National Test Site is in my district, for example, and 
is a critical component to National security efforts. 
Obviously, do you agree that we need to do everything we can to 
protect these facilities?
    Ms. Callahan. Yes, absolutely.
    Ms. McGuire. Yes.
    Mr. Horsford. So my follow-up question is: In this 
budgetary environment, does the protection from cyber threats 
against our National security facilities need to be a budget 
priority?
    Ms. McGuire. We have stated during this uncomfortable 
period of sequestration and some of the cuts that are going on, 
that cybersecurity issues should be at the forefront and a 
priority to not be taking the scalpel to at this point in time. 
I think you can look at any number of reports, whether they are 
our report or others, as well as reports coming out of various 
agencies, that this is not the time to be putting our critical 
infrastructure, our National security apparatus at risk.
    Mr. Horsford. Thank you very much, Mr. Chairman.
    Thank you to the Ranking Member, again, for the courtesy.
    Mr. Meehan. I thank the gentlemen for taking the time to 
join us today. I know he had conflicts in his schedule. It is 
deeply appreciated.
    Also, for the record, I think we all share the genuine 
appreciation to assure the adequate funding for this very, very 
important area, although this is one of the areas, actually the 
budget was plussed up in this area, which was, in this day, a 
victory, where staying even is the new staying ahead; that was 
a good result.
    At this moment, the Chairman now recognizes the gentleman 
from Montana, Mr. Daines.
    Mr. Daines. Thank you, Mr. Chairman.
    I was--my last 12 years in the private sector before I came 
to Congress here in January was actually the cloud computing 
company that we took public in global operations. So we were 
very much in the midst of denial-of-service attacks and I guess 
living in the world you all live in every day.
    We had a case one time where the Federal Government came 
asking for customer data regarding a threat to our National 
security; in fact, it was the Secret Service that approached 
us, and we refused to give the information up, saying this was 
customers' data; it was not our data, ultimately. The Secret 
Service moves quickly, and a subpoena came about 2 hours later, 
and then we had a process where we could hand the data over to 
investigate the situation.
    What do you think is the minimum amount of data, talking 
about the balance of privacy and protecting our country and 
industry from cyber attacks, what is the minimum amount of data 
that you think we need to adequately trace back a cyber attack? 
I would love to get opinions on that.
    Ms. McGuire. So I think there is often a lot of questions 
around IP addresses and whether or not that is considered PII 
or not. In our view, IP addresses are really a pointer back to 
a specific threat, and they need to be aggregated with other 
information in order to actually resolve back to an individual. 
So, at the face value, because we get this question a lot, are 
IP addresses PII, and there is a little bit of a gray area 
there; sometimes they can be, but generally they are not. So I 
think this goes to the crux of the broader issue around 
attribution and the difficulty we have with attribution today 
because IP addresses are not generally static; there are 
constantly changing. So to your question around what is or 
isn't, it is not always clear, but I think if you have the 
proper standards and practices and policies in place to make 
sure that privacy or PII information and privacy is protected, 
that you are on the right side of the issue.
    Ms. Callahan. I would add, for the Department of Homeland 
Security, when I was there, the way they would address it is 
that there were these signatures or indicators that may or may 
not contain what could be personally identifiable information. 
Ms. McGuire mentioned IP address. There also may be other 
indications that could be personally identifiable information. 
So what the Department has done, due to its standard operating 
procedures, is to look at that and see whether or not that 
personally identifiable information needs to be shared or 
information that could be personally identifiable needs to be 
shared as part of the signature or indicator. If it does, then 
it has to be approved by a supervisor to make sure that it 
indeed is consistent with the SOP. So if it is necessary, that 
information will be shared, but you have to analyze it to make 
sure that it is not just being shared because it is easier.
    Mr. Daines. Ms. Pearson.
    Ms. Pearson. I agree with my colleagues. Most of the time, 
piecing together what happened or what is the source does not 
really require access to personally identifiable information, 
but sometimes it does. It is a little bit like detective work. 
I think you can avoid that kind of data to some degree, but 
sometimes, it is just embedded in systems. It is embedded in 
the kind of thinking you have to do. It is not just the digital 
detective work; sometimes you have to think about, for example, 
was somebody trying to--and this is an amalgam of client 
experiences I have had--is somebody trying to get at a system 
using a mix of physical as well as digital measures? So then 
the question becomes: Well, who had access, physically who had 
access? That is the kind of information that might be collected 
and might conceivably be shared with law enforcement because 
fundamentally most of this kind of activity we are talking 
about is against the law.
    Mr. Daines. Right. Let me ask you this, Wayne Gretzky made 
the famous comment, ``skate to where the puck is going.'' In 
this very dynamic and world of innovation and break fix, and 
things change within minutes and hours; you talked a bit about 
technology that could be used to minimize data as it is coming 
in as it is relates to privacy. Where do you see that headed 
as--of course, we have had a lot of concerns from our 
constituents about the whole privacy issue, but where do you 
think this is all headed here when you make advancements in 
technology that can cost-effectively minimize data, still 
allows us to investigate but yet protects the privacy of our 
constituents?
    Ms. Pearson. My own view is that the market speaks, and as 
the market looks for solutions like this, that protected 
security by either requesting or rewarding the ability to 
manage in mass data, then these solutions are technically 
feasible and have already been invented, frankly, and it is a 
matter of commercializing them, doing what you did, taking it 
to the market.
    One thing to note, in my view also, is that we are here 
talking about homeland security issues, cybersecurity issues as 
it relates to that aspect, but there are so many other reasons 
that companies need to keep information secure and 
confidential. There are other sources of legal obligation. 
There are other sources of reputational issues.
    Mr. Daines. The forces of competition.
    Ms. Pearson. The forces of competition are absolutely 
there, and the innovations available to embed, whether it is 
cloud computing or in new ways of segmenting information on 
devices that we all carry and use these days, are available or 
are coming. It is a matter, I think, of pooling them.
    Mr. Daines. I know my time is up. I would love to have Ms. 
McGuire answer that if I could, Mr. Chairman.
    Mr. Meehan. The Chairman would allow Ms. McGuire to share 
her instincts on this.
    Ms. McGuire. Thank you. I think there are--there is a lot 
of work being done in this area as far as innovation with 
moving to machine, really machine-to-machine readable data, so 
that people don't even get into the middle of this. It is about 
really identifying at the front end when the data is coming in 
what would be considered PII so that maybe a human never 
actually even looks at it. So I think that is certainly a 
direction that we need to go in when we are talking about this 
kind of information sharing for cybersecurity protection. That 
is, I think, is a major innovation the industry is moving 
towards today.
    Mr. Daines. Thank you.
    Mr. Meehan. Thank you, Mr. Daines.
    The Chairman now recognizes the Ranking Member, the 
gentlelady, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    I thank the panelists once again for bringing their 
expertise to bear on this very timely issue. There are two 
central privacy concerns when we talk about private-sector 
collaboration with the Government to stop cyber attacks, are 
over what information gets sent and who in the Government it is 
sent to. Various legislative approaches to these two questions 
have been quite controversial and is something we in Congress 
are still struggling to get right.
    So I want to ask the panel three questions: How much 
minimization of the information should be required from the 
private sector side when sharing information? Does too much 
minimization place an undue burden on companies, and where is 
the right place in the Government for this sharing to occur?
    Ms. Callahan. Thank you very much, Ranking Member Clarke. 
The concept of minimization is an important tenant of the FIPPs 
and one that the DHS applied very consistently through its 
standard operating procedures when I was there, and I believe 
continues to do so. With that said, how much minimization is 
appropriate, necessary from the private sector? I don't think 
the question how much is--I think it is more to think about how 
to effectively and efficiently implement it, rather than 
putting the burden on the private sector to go through all 
these laborious steps, but if they address it, either through 
machine-to-machine readable that Ms. McGuire spoke about, or 
through other standard policies and procedures, like the 
Department has been implementing, which is kind of now like 
muscle memory in terms of how to implement it, I think it can 
be an effective tool in order to share timely information on 
threats without unduly burdening privacy.
    Ms. McGuire. From our perspective, we think that reasonable 
minimization standards or practices as are outlined in the 
FIPPs is appropriate and is not an undue burden for industry. 
At least from our perspective, we do that today.
    As far as your question about where should the information-
sharing relationship reside within the Government today, our 
view is that it should reside with the civilian agency and for 
a couple of reasons. One is, we believe that it sends the right 
message to our citizens and to other governments. We have a 
long tradition of--in this country of being a civilian-led 
government, and we also believe that the civilian agencies 
today have a framework in place to work with the private 
industry.
    If you look at the level of investment over the last 10 
years, that industry as well as Government has put into the 
public/private partnerships, for example, that DHS today is the 
focal point and lead for with the participation of the rest of 
the associated agencies as well as the Department of Defense, 
we believe that we should build on that foundation and not, you 
know, spend another 10 years trying to create something that, 
while we need improvements, we can utilize and build on today.
    Ms. Pearson. Let me add my perspective on this. In terms of 
data minimization, one thing to note would be that, by far, the 
majority, if not every single organization, the private sector 
that I have seen, no one is eager to open the door and hand 
over information to Government unless there is process of some 
sort, some rules around it. The gentleman spoke about a 
subpoena or some kind of legal structure, and I think the 
minimization of information to be handed over or to be shared 
or to be allowed to access to, a lot of that motivation is 
there already. So in terms of standards, I think educating and 
putting that thought process into, for example, the new NIST 
cybersecurity framework so that it is put in there as other 
elements are put in as a voluntary framework that we all know 
will be quite influential. I think is very important to send a 
signal and the expectation there.
    Certain businesses and organizations in the private sector 
have more sophistication than others, and so I think as well 
for smaller and medium-sized businesses, particularly that 
thought process and the technology of how to do that, I think, 
will be perhaps more challenging than other large 
organizations, so that is an open issue that I don't have a 
solution for at this moment, but again, you know, I would point 
to it.
    Then, finally, in terms of the right place or the central 
location, I guess my observation would be that in the last 
number of years that I have been working in this area, that 
there has been a collaboration among agencies as everyone has 
sorted through who has expertise, how do you go about doing 
this, how do you work with the private sector, and that 
collaboration today, while imperfect, no doubt, has been 
effective and has shown a regard for the mission and the 
objective over a regard for individual organizational dynamics, 
and that, I think, is the most important element to continue.
    I share Ms. McGuire's general view of the importance of 
civilian-led engagement, but I also am cognizant of the fact 
that there have been collaborations that have been very 
effective and worthwhile that have been handled primarily 
through the military more or military agencies.
    Ms. Clarke. Very well. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Meehan. I thank the gentlelady.
    The Chairman now recognizes the gentleman, the former 
prosecutor for Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman, Ranking Member.
    I just had a question. There has been a lot of discussion 
about the private-sector involvement, the Governmental 
involvement. To what extent are universities and colleges 
involved in dealing with this issue, trying to seek resolution, 
trying to do research, looking at programs? What is your 
experience about their involvement in this and how has that 
been utilized by either government or the private sector? 
Anyone?
    Ms. Callahan. I guess I will start. So, there is a great 
deal of research going on with cybersecurity and cybersecurity 
protections. There is also a lot of integration among the 
different colleges to help protect it. In addition, as you 
note, sir, the colleges themselves have potentially critical 
infrastructure information or research information that they 
will need to protect themselves. So, from the Department's 
perspective, they have been--they were--when I was there, and I 
think they have continued since I have left, continued to do 
outreach to try to help bolster both the cybersecurity training 
that Ms. McGuire spoke about but also to help bolster the 
research involved therein.
    Ms. Pearson. The additional observation I will make is that 
universities and colleges in our country are among the most 
privacy-sensitive organizations, particularly because they are 
Federally statutorily mandated to protect educational records, 
and so I think from a privacy side of the cybersecurity 
equation, they would be among the institutions I would say 
would be most sensitive to the aspects of what to do to monitor 
systems to, you know, protect information that way.
    They also, as a group, happen to have access to some of the 
leading-edge innovation in intellectual property in this 
country, and so incenting them and helping universities 
identify their crown jewels and to encourage them to protect 
is, I think, an important attribute of what we are doing as a 
strategy and National strategy, and you know, I think that is 
important.
    Mr. Keating. I believe there is a middle ground myself that 
they could really occupy, where they don't have a commercial 
interest as much as some cyber, you know, some private-sector 
sides. The additional benefit of investing in universities will 
address one of the other issues that were brought up. As we are 
using and utilizing universities, we are going to have more 
trained people available in the workforce, so that is a major 
side benefit of doing that, so I just----
    Ms. McGuire. I would also just add that the academic 
institutions and universities have been involved in this 
information sharing for quite awhile now with their research 
and education networking, information sharing and analysis 
center, the REN-ISAC as it is called. It is actually a 
consortium of universities that share threat and other types of 
data amongst themselves so that they can help to bolster their 
own protections, and that has been in existence for over 10 
years now. So I think it is important that we also make sure 
that they are a part of this information-sharing partnership as 
well moving forward.
    Mr. Keating. You know, I do believe there is a greater 
place for them in adopting some policies and using some of that 
innovation and some of the models that might be there.
    Quick question. Let's assume there is a major cyber attack, 
attack on systems, something that would have a dramatic effect 
on our economy. Now, there will be a reaction to that. What 
would be the one thing you would not want to see Government 
react to perhaps that would be overreacting to such a major, 
major event, because there will be reaction when that happens, 
and there will be a suddenness if we don't move on our own 
ahead of time? What would be your greatest fear that Government 
would overreact in that kind of situation?
    Ms. McGuire. I think there is two. One is on the 
operational real-world side, which is that--and this goes back 
to that attribution question that we talked about earlier, that 
perhaps there might be some kind of defensive posture taken 
that is more detrimental as an outcome than the attack itself 
and perhaps targets the wrong systems or networks as part of 
that defense.
    The second piece is really around policy, and that is that 
when we--when we see big events of other types in the past, we 
can often get a knee-jerk reaction in the development of policy 
or rules and regulations that may not, may not always be as 
conducive in the long run while they are trying to address the 
short-term issue to our ability to protect ourselves for the 
long term. So those are the two areas.
    Mr. Keating. Thank you, Mr. Chairman. I yield back.
    Mr. Meehan. Thank you, Mr. Keating.
    The Chairman now recognizes the gentleman from Texas, Mr. 
Vela. No questions at this point in time. Thank you. I am very 
grateful for your taking the time to join us, Mr. Vela, and 
notwithstanding.
    If the--no objection, I have a few follow-up questions on 
some issues that I would like to have you further clarify.
    The panel has talked a number of times today about 
personally identifiable information sort of in the context of 
other questions, but I think there is a fundamental question: 
Just what do you believe personally identifiable information 
might be? Then, what is threat information, and how are they 
distinguished? Are there similarities? Help me to help others 
understand what you think those terms mean.
    Ms. Callahan. I guess I will go first. So, there is a kind 
of traditional definition of personally identifiable 
information which is associated with an individual, name, email 
address, social security number, telephone number, and that has 
traditionally been the definition of personally identifiable 
information. There has been an approach to broaden that for 
information that is identified or could be identified with an 
individual, and that is the current Federal definition of 
personally identifiable information, so you could have some 
liaison information with it.
    In fact, the Federal Trade Commission, on a slight 
different note actually has now included IP address, MAC 
address associated with mobile devices and other information 
that is personally identifiable information in their rule on 
children's privacy. So it is kind of a little bit of a moving 
target.
    With regard to Department of Homeland Security and how they 
think about personally identifiable information in the cyber 
context, they look at information, including IP address, and 
they presume that it is personal information, so this data 
mineralization process I spoke about earlier with the gentleman 
from Montana talks about let's presume that an email address or 
an IP address is personal information, is it necessary to be 
included in the signature or the threat information?
    Mr. Meehan. Right.
    Ms. Callahan. It is a broad definition, and then the 
analysis is whether or not it should be included in the threat. 
But as my colleagues noted earlier, the vast majority of time, 
even that broad definition of personally identifiable 
information isn't necessary to include in the threat.
    Mr. Meehan. Now, how about because we are watching--and I 
think there was some testimony. I know it was in the written 
testimony. We have seen a tremendous expansion in the amount of 
mobile devices that are now being used as back doors to that, 
so is that expanding on the amount of information that may be 
getting caught up in the net if we are starting to do more to 
look after protecting against violations that happen on 
personal devices?
    Ms. McGuire. Yeah. I think there is no question that the 
proliferation of different devices and ways for us to connect 
to the internet and to move our data around creates a larger 
attack surface, if you will, and more opportunities for the bad 
guys to access our personal information. So, you know, things 
like FIPPs and other kinds of policies to protect your private 
data, coupled with all of the necessary security that you need 
to have on all of those devices, they have to be done, done 
together to ensure, at least provide a level of assurance that 
your information and your privacy is secured.
    Ms. Pearson. So let's take a really concrete example. Let's 
say you are a business with a few thousand employees and you 
allow employees to use their smartphones or iPads, or you know, 
device and connect and do work, and let's say that somebody who 
operates your systems sees some weird behavior, and they say: 
Well, what is going on? They look to see, and it is some of the 
source of that information, of that aberration is coming from a 
few of the devices that are hooked up to the network. What is 
collected is system information and device information to find 
out what is going on, what is the source of it. That is threat 
information. That is the kind of information, when you are in a 
business, you are collecting.
    The next question is: Well, do you share it with anybody? 
Do you go to one of these information-sharing collaboratives 
with industry and then say: I have seen something; have you 
seen something? You compare notes. It is kind of like a 
Neighborhood Watch. You say, well, you know, this is kind of 
happening in my neck of the woods, my neighborhood.
    Most of the information--all the information in that 
context is not identifiable information because you are just 
saying, well, I have got devices, and this is what I have seen. 
The question that turns it from threat information that is non-
PII to personal information is if you have reason to say: Oh, 
and that device belonged to X.
    Mr. Meehan. Why would you say that, though? Is there a 
circumstance where you would?
    Ms. Pearson. In a situation I just painted where you are 
trying to figure out what is going on, probably not. If there 
is reason to think that some--that whoever had that device 
needs to be contacted to be asked questions or maybe there was 
something going on, perhaps then there might be, which is why I 
think all of us in our remarks have talked about how the 
majority of information in the cyber context is not PII, but 
sometimes it might be, and then it becomes a matter of 
safeguarding and treating that information well.
    That is, I think the danger of trying to overcircumscribe 
how this stuff works because it is very--it is complex, it is 
changing, the technology is changing, and the way to address 
these issues today is very different from what it was even a 
couple of years ago and it will change going forward.
    Mr. Meehan. Go ahead and recognize my Ranking Member for 
some follow-up questions as well.
    Ms. Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    You know, this is such a fascinating area that we are 
engaged with right now, and we are really just at the beginning 
of what can ultimately be a way of life for us because the 
technologies is ever-evolving, but I have a question about data 
breach information, obligations, rather.
    When a company is hacked, what is its obligation to its 
customers? What is its obligations to its employees and its 
shareholders? Do you think that current law is sufficient to 
compel corporations to give their stakeholders the information 
they need? That is one question.
    Then I want to ask another very important question because 
this is over time. So, over the past decade, we have witnessed 
an explosion in the usage of the internet for all aspects of 
everyday life. Networking technologies have now fully 
penetrated our civil society. Many are worried about the 
intended and unintended consequences of this. Some have talked 
about changing expectation of privacy as a result of the 
internet. Many people have mused that no one will be able to 
run for President in the future due to the amount of 
information about us through social media, whether it is 
Facebook, LinkedIn, all of these things that reveal so much 
about us. Do you think that these technologies are changing how 
we think of our privacy? How do you see the internet affecting 
our conception of privacy in the future?
    Ms. Pearson. Really simple questions. Can I start?
    Ms. Callahan. Sure. Go ahead.
    Ms. Pearson. I will start with the second one first. That 
is the broad question, I think, of our time for those of us who 
work in this area daily. There is something--every realm, every 
type of new technology that has some implication for the 
collection management of information over time, starting with, 
you know, even before the camera, but the camera is kind of a 
modern era start of the technology cycle that has led us to 
camera to telegraph to telephone to video, et cetera, et 
cetera, prompts this question, and we as a society search for 
the answer, and we as an American society have come up with a 
unique blend of mechanisms, law enforcement, policies, norms to 
answer it for ourselves as a people.
    This current era in which we live is a very rapid 
technology cycle, and the rapidity of it has challenged our 
whole concept. So while I resisted tweeting that I was coming 
in here, I will tweet on my way out, and it is, I think, the 
generation to come, the digital native generation will 
reflexively, I think, engage in this information sharing, to 
speak of another kind of information-sharing activity, much 
more normally and as regularly than we might. But I believe 
firmly, and I think there are studies that show it academically 
that the human psyche needs a zone of privacy, and it just 
needs to express itself in different ways, given the parameters 
of what we are living in.
    So I firmly believe that despite some of the rhetoric 
around here, humans have, American--you know, in our American 
society, but globally, some sort of psychological need for a 
zone in which to express oneself, and you know, in our country, 
I think the challenge will be to reinvent that for the coming 
era and figure out what the laws and norms are around it.
    Ms. McGuire. I will take the first question on data breach 
first. Clearly, companies have a series of obligations to 
inform their customers, their employees, and their 
shareholders.
    Today, however, we do have a patchwork of regulation around 
that. I think we have 48 different State laws, and that can be 
difficult for companies to scale to when they have experienced 
an unfortunate data breach issue. So having some commonality 
around what that reporting should be, I think, at least from 
our perspective, would be desirable.
    On the second question around internet--the increasing use 
of internet and how it is changing and evolving our perceptions 
on privacy, there is no question that I think, as Ms. Pearson 
stated, that there is a big difference between, you know, the 
over-30 generation and the under-30 generation on how we 
perceive our privacy and our own information.
    I was part of a panel a couple of weeks ago on privacy and 
security where we were discussing the changing nature of 
anonymity on the internet and the role that that will play in 
regard to future views on privacy. So I think we are starting 
to see a huge evolution, if you will, just in how we are going 
to be thinking about these issues in the future.
    Ms. Callahan. If I could have two small points on both 
questions. You asked about data breach obligations, and I think 
it is worthwhile to note that the patchwork of State laws that 
Ms. McGuire mentioned involved a very narrow definition of 
personally identifiable information. So it would be first and 
last name, coupled with a sensitive identifier, such as social 
security number, but there can be many cyber breaches that may 
not reach the level of a data breach for notification.
    Now, there is--so it is almost two different types of 
breaches, a cybersecurity incident and a data breach incident. 
With that said, there is guidance from the SEC that public 
companies should notify about if there has been an incident, 
but they also should notify whether or not there is a 
possibility or some sort of problems, and I think that is worth 
noting in terms of your shareholder question.
    With regard to the internet, I think that the FIPPs of user 
control and transparency are going to be important tenets as we 
get into this kind of ubiquitous always on-line information. 
You should know what is being happening with information and 
how you as an individual can control it. I think that will help 
define privacy in the future.
    Mr. Meehan. Well, I thank you. Let me ask one sort of 
closing question to the extent you feel comfortable answering 
it, because obviously as we work through, this is one example, 
although one of the critically important issues that we are 
dealing with as we try to find a framework for legislation that 
helps us find the very balance that we are exploring today. So, 
if you were in our shoes and you were writing the legislation, 
how would you look to write something that accommodates the 
concerns that we are sharing today? What would be in that 
legislation to help, you know, limit the sharing of PII but 
still encourage the ability for us to get the necessary threat 
information that we need to protect?
    Then what kind of rules do you think we should be putting 
in place to encourage and give guidance to companies to allow 
them to feel comfortable doing information sharing, in fact, to 
encourage it, because part of the fear is if you have outliers 
that don't participate, as you have stated, the weakest link 
may be the avenue in, how do we make sure that we do the most 
to protect our system?
    So, you are the legislators and we have got to go to draft, 
what would be included to address those issues? I will ask you 
to move across.
    Ms. Callahan. Well, thank you very much, and I am happy to 
be a legislator. I enjoyed my time in the Executive branch, but 
I look forward to being on your side. No, just kidding.
    If I were writing the legislation, I would want to make 
sure that this--that the FIPPs were thoroughly integrated into 
the legislation, and we have spoken a lot about how effective 
that is and how it is a framework, and it is very flexible, and 
I think those are important tenets to put in there. We don't 
want to be too prescriptive, we don't want to be too specific, 
but we want to have the framework and the concepts, and I think 
data minimalization from the information sharing is a very 
important tenet.
    With regard to the types of rules to be put in place, 
FIPPs, obviously, but I will also say that the NIST 
cybersecurity framework that is currently going on with the 
Executive Order can be a very useful tool to help all the 
small- and medium-sized enterprises who are going to be sharing 
information as well as the large multinational ones have the 
same kind of baseline and not try to reinvent the wheel.
    Ms. McGuire. I largely agree with everything that Ms. 
Callahan has said, but I will just add that I think there is 
one or two additional pieces. In addition to the FIPPs 
components and building on the existing frameworks that we have 
in place today, those two key pieces are that civilian agency, 
as a lead, I think, are very important to ensuring that our 
citizens feel comfortable that their personal information is 
not somehow being used for purposes other than securing 
networks and systems, and also the legal liability issue for 
companies especially to feel comfortable to share information 
with the Government.
    Today we are--we have a very laborious process. If we want 
to share something that is not part of a contractual 
arrangement that exists today, a business arrangement with 
Government agencies, that can take a lot of time, and 
oftentimes the information becomes stale.
    Mr. Meehan. They say in a moment where we are talking 
microseconds sometimes about information being relevant to 
preventing a threat.
    Ms. McGuire. Yes. Information becomes stale very quickly, 
and so today we have to go through a series of internal privacy 
checks as well as legal checks and antitrust checks if we want 
to share with other companies even. As you can imagine, that 
takes a lot of time and resources when time is often of the 
essence.
    Mr. Meehan. Thank you.
    Ms. Pearson.
    Ms. Pearson. I also largely agree with my colleagues. The 
additional couple of points I would make is that as 
legislators, the oversight function that you have the ability 
to play should not be underestimated at all and should continue 
to be exercised, particularly in this area, to make sure that 
the agencies involved and the stakeholders involved are 
discharging for obligations here. I think that is very 
important.
    Another point to make is that certainty is important. 
Certainty is important to business, of course, and I know from 
my service on, for example, the American Bar Association 
Cybersecurity Legal Task Force, which cuts across the entire 
bar association and other fora that, as a whole, the members of 
the bar who are counseling companies across the board, 
different industries, are coming off the curb, so to speak, on 
their understanding how the different laws here intersect with 
one another and work with another, whether it is antitrust or 
privacy or other things, and encouraging that kind of 
maturation, I think, for example, by holding briefings, by----
    Mr. Meehan. Are you saying that they are beginning to 
understand the parameters and more effectively counsel their 
clients as to what they may or may not do?
    Ms. Pearson. It is a complex--as you noted before, it is a 
complex area of law, and the challenge with security and 
securing is that it implicates so many areas of law, current 
law and then a lot of the law that is coming. So what I see 
happening is more and more, you know, the defense industrial-
based pilot, for example, was it a fantastically successful 
pilot? As involvement of industry broadens in the framework at 
NIST and the voluntary efforts, so is an additional expansion 
of individuals, particularly in the legal community who are 
starting to understand how to put all those pieces together, 
and so that should be encouraged, in my view.
    Mr. Meehan. Well, I think we have time constraints, so I 
want to express my deep appreciation. I think we could go on 
with this hearing well into the evening hours, but I need to 
respect everybody's time, and I particularly appreciate the 
work that each and every one of you has done, not just in the 
preparation for this hearing, but your long period of service 
in what is a vital and important area now for our Nation as we 
move forward trying to find the right balance on this and the 
other questions that are relevant to the challenge that we 
face.
    I don't think anybody denies or is running from the true 
nature of the very real threat that exists out there in the 
cyber world that is affecting people in so many different 
capacities, but I also am confident in our capacity to meet the 
challenge if we do it with enough forethought.
    So I thank you for having very, very valuable testimony to 
this consideration as we work together as a committee to try to 
reach the right challenge in the bills that we will propose. 
There may be Members from the committee who have a question, 
and if they do and they submit it to you, I would ask that you 
do your best to try to respond in writing, if that should 
happen. But I thank you for your continuing work and I look 
forward to continuing dialogue as we move through on this very 
important issue.
    I thank the Members of the committee. The committee now 
stands--subcommittee now stands adjourned.
    [Whereupon, at 3:44 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
